<html>
<title> - REAUTHORIZATION OF THE COMMUNITY SERVICES BLOCK GRANT PROGRAM</title>
<body><pre>[Senate Hearing 108-299]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-299

     REAUTHORIZATION OF THE COMMUNITY SERVICES BLOCK GRANT PROGRAM

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON CHILDREN AND FAMILIES

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   ON

EXAMINING PROPOSED LEGISLATION AUTHORIZING FUNDS FOR COMMUNITY SERVICES 
                          BLOCK GRANT PROGRAM

                               __________

                             JULY 10, 2003

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


88-414              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                  JUDD GREGG, New Hampshire, Chairman

BILL FRIST, Tennessee                EDWARD M. KENNEDY, Massachusetts
MICHAEL B. ENZI, Wyoming             CHRISTOPHER J. DODD, Connecticut
LAMAR ALEXANDER, Tennessee           TOM HARKIN, Iowa
CHRISTOPHER S. BOND, Missouri        BARBARA A. MIKULSKI, Maryland
MIKE DeWINE, Ohio                    JAMES M. JEFFORDS (I), Vermont
PAT ROBERTS, Kansas                  JEFF BINGAMAN, New Mexico
JEFF SESSIONS, Alabama               PATTY MURRAY, Washington
JOHN ENSIGN, Nevada                  JACK REED, Rhode Island
LINDSEY O. GRAHAM, South Carolina    JOHN EDWARDS, North Carolina
JOHN W. WARNER, Virginia             HILLARY RODHAM CLINTON, New York

                  Sharon R. Soderstrom, Staff Director

      J. Michael Myers, Minority Staff Director and Chief Counsel

                                 ______

                 Subcommittee on Children and Families

                  LAMAR ALEXANDER, Tennessee, Chairman

MICHAEL B. ENZI, Wyoming             CHRISTOPHER J. DODD, Connecticut
CHRISTOPHER S. BOND, Missouri        TOM HARKIN, Iowa
MIKE DeWINE, Ohio                    JAMES M. JEFFORDS (I), Vermont
PAT ROBERTS, Kansas                  JEFF BINGAMAN, New Mexico
JEFF SESSIONS, Alabama               PATTY MURRAY, Washington
JOHN ENSIGN, Nevada                  JACK REED, Rhode Island
LINDSEY O. GRAHAM, South Carolina    JOHN EDWARDS, North Carolina
JOHN W. WARNER, Virginia             HILLARY RODHAM CLINTON, New York

                   Marguerite Sallee, Staff Director

                 Grace A. Reef, Minority Staff Director

                                  (ii)






                            C O N T E N T S

                               __________

                               STATEMENTS

                             JULY 10, 2003

                                                                   Page
Alexander, Hon. Lamar, a U.S. Senator from the State of Tennessee     1
Horn, Wade F., Assistant Secretary For Children and Families, 
  U.S. Department of Health and Human Services...................     5
Bradley, David A., Executive Director, National Community Action 
  Foundation; Phillip McKain, President and Chief Executive 
  Officer, CTE, Inc., and President, Connecticut Association For 
  Community Action; Nathaniel Best, Knoxville, TN; Winifred 
  Octave, Worcester, MA; and Michael Saucier, Berlin, NH.........    16

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Wade F. Horn.................................................    30
    David A. Bradley.............................................    32
    Phillip McKain...............................................    71
    Michael Saucier..............................................    74
    Patsy C. Lewis...............................................    75
    National Association for State Community Services Programs...    77
    Letter to Senator Dodd, dated June 30, 2003, from Patricia A. 
      Wilson-Coker, Commissioner, Connecticut Department of 
      Social Services............................................    81

                                 (iii)

  

 
     REAUTHORIZATION OF THE COMMUNITY SERVICES BLOCK GRANT PROGRAM

                              ----------                              


                        THURSDAY, JULY 10, 2003

                               U.S. Senate,
             Subcommittee on Children and Families,
of the Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 3:20 p.m., in 
room SD-430, Dirksen Senate Office Building, Senator Alexander 
(chairman of the subcommittee) presiding.
    Present: Senators Alexander, Dodd, and Jeffords.

                 Opening Statement of Senator Alexander

    Senator Alexander. The hearing will come to order.
    First let me apologize to the witnesses and those who are 
in the audience for the delay. I was presiding, and we had a 
vote, both of those things, so it took me a few minutes to get 
here to get started. But we are looking forward to today's 
hearing, and I thank you very much for coming.
    I want to welcome everyone. This is, as most of you know, 
the reauthorization of the Community Services Block Grant 
Program. That program is important. It helps low-income 
individuals and their families achieve dignity and self-
sufficiency, and it accomplishes this by block grants to 
States, which then distribute the funds to local groups called 
community action agencies. These agencies in turn use the funds 
in many different ways to provide a number of social services 
to help low-income individuals and their families achieve a 
better quality of life--such things as finding a good job, 
getting an adequate education or a decent place to live, 
finding ways to improve household income.
    In Tennessee last year--the State I know the most about--
the CSBG program served over 100,000 individuals and more than 
60,000 families, and of those, 40 percent were elderly or 
disabled families living on a fixed income, and 90 percent were 
living below the Federal poverty level.
    The Federal poverty level for an individual is about 
$9,000; for a family of two, about $12,000; for a family of 
three, about $15,000. So those are the Americans that we are 
talking about.
    Of those who are involved in the CSBG program, about three-
quarters who sought housing assistance last year moved from a 
level of substandard housing to stable housing, and more 
individuals and more than 500 families moved away from 
homelessness. About four out of 10 people who became involved 
with these programs and who were seeking better jobs obtained 
better jobs, and two-thirds of those obtained health care 
benefits that came along with those jobs.
    We are interested today in learning not just about the 
success of the program, of which there are many, but about ways 
to improve the program. I am especially interested in hearing 
more from Mr. Horn and others about ways we can help 
individuals find new and better jobs. We live in a prosperous 
time on the one hand and a difficult time on the other. There 
are a great deal of jobs being created, and there are a great 
many jobs being lost.
    I would be interested, for example, to hear how the CSBG 
program affects those who might have been laid off or lost a 
job.
    We have two panels of witnesses. The first panel is Dr. 
Wade Horn, Assistant Secretary for Children and Families within 
the Department of Health and Human Services. His administration 
within HHS is responsible for administering this program. He 
has a wide range of responsibilities and a well-known 
background of reform and helping children and families. We are 
looking forward to his testimony.
    On our second panel, whom I will introduce now, and we will 
ask you to come up after Dr. Horn, the first witness is David 
Bradley, executive director of the National Community Action 
Foundation, who has been involved with this program for a long, 
long time.
    Our next three witnesses are individuals who have actually 
used the services of CSBG and can tell us a little bit about 
the program on a first-hand basis--Nathaniel Best, from 
Knoxville, TN; Michael Saucier, from Berlin, NH; and Winifred 
Octave, from Worcester, MA.
    Our final witness is Mr. Phillip McKain, who is president 
and CEO of CTE, Inc., which provides CSBG services in the State 
of Connecticut.
    I want to thank everyone again for coming. This is an 
interesting and diverse group of witnesses who will give us a 
first-hand perspective. Several of you have statements which 
you have already prepared; we will take those for the record 
and ask you to summarize your statements.
    First, Dr. Horn, we thank you for coming, and we look 
forward to your taking whatever time you need to talk with us 
about the program, its successes, and ways that you think it 
might be improved as we seek to reauthorize it.
    Before we begin I have statements from Senators Kennedy and 
Harkin.
    [The prepared statements of Senators Kennedy and Harkin 
follow:]

                 Prepared Statement of Senator Kennedy

    I'm pleased that Ms. Winifred Octave, a graduate of the 
Worcester Community Action Council is testifying before the 
subcommittee today. The Council has achieved remarkable 
successes in its programs, and Ms. Octave is one of these 
success stories.
    There are 1,000 community action agencies across the 
country. They serve 34 million people, and almost every county 
has one. The majority of participants are extremely poor, 
living at or below 75 percent of the federal poverty line--
that's less than $11,300 a year for a family of 3.
    Community action agencies provide vital services that help 
people like Ms. Octave to help themselves and achieve self-
sufficiency. Many participants come to these agencies feeling 
discouraged, with nowhere else to turn.
    The agencies provide vocational education, job training and 
emergency food and shelter. They provide domestic violence 
counseling, day care, housing, transportation, literacy 
assistance and English as a Second Language. They give their 
clients opportunities and hope for the future.
    Here's a good example from our state. A single mother and 
high school drop out came for help in the spring of 2001 after 
leaving an abusive relationship. She completed a job skills and 
readiness course and a computer literacy course, and earned 
credits toward her high school diploma. One year later, she was 
working as a teller in a local bank and preparing to take her 
high school equivalency exams for her GED. Today, she is 
planning to go to college to get a degree in early childhood 
education. She agrees that before the program, she had a bad 
attitude. But now she feels like she has a future with 
attainable goals.
    There are countless stories like hers across the country, 
and with the continuing economic downturn, there will be many 
others who find themselves needing these services. The national 
unemployment rate last month reached 6.4%--the highest in more 
than 9 years, and the largest monthly increase since the 
September 11 attacks. Since March of this year, nearly 1 
million jobs have been lost. With worsening economic conditions 
and cuts in important low-income programs, we must do more to 
see that help is available.
    What's unique about these agencies is the way in which they 
are part of the community. Although the funds go to the states, 
90 percent are passed on to the local community agencies. A 
third of the members of each local board must be low-income 
community residents. Winifred Octave is one of these board 
members in Worcester. The focus on local input helps to see 
that the unique and specific needs of the community are known 
and addressed.
    No two agencies are alike, because each agency provides the 
services that are identified as most needed. This program is 
one of the few federally funded programs that is so flexible 
and so targeted in its delivery system.
    Programs can include community economic development, job 
opportunities for low-income individuals, rural community 
facilities, and the national youth sports program. There is a 
community food and nutrition program. Individual development 
accounts also provide support services for low-income persons.
    The community economic development program has particular 
significance for our family. In 1966, when Robert Kennedy was a 
Senator, he sponsored the legislation that helped create the 
first thirty community development corporations around the 
country. Public-private partnerships were launched that 
revitalized struggling neighborhoods through job and business 
opportunities for low-income residents.
    In those years, we like to think, we declared war of a 
different kind--the War on Poverty. The nation is still 
struggling to win that war. We know that these Community 
Services Block Grants help real people and improve real lives, 
and I look forward to hearing more about these basic issues 
from our witnesses today.

                  Prepared Statement of Senator Harkin

    I would like to thank Chairman Alexander for calling this 
hearing today on the Community Services Block Grant (CSBG) and 
the critical role it plays in alleviating poverty in 
communities across the country.
    In my state of Iowa, CSBG funding is used predominately to 
fund Community Action Agencies or CAA's, that help low-income 
families overcome challenges in achieving self-sufficiency. 
Iowa's CAA's do a remarkable job in carefully identifying needs 
of communities and then providing a range of programs and 
activities to expand opportunities for low-income people to 
escape poverty. This includes resources for employment and 
training, education, housing, senior services, domestic 
violence prevention and Head Start.
    Last year, CSBG funding provided these and other services 
to more than 13 million low-income individuals and 6 million 
families nationwide. In Iowa, approximately 300,000 individuals 
and 117,000 families benefitted from CSBG.
    CAA's are also an integral component in welfare reform 
efforts. Our welfare caseloads dropped significantly in Iowa 
since the 1996 Welfare Reform. CAA's contributed to the success 
by helping previous or current welfare participants initiate 
family development and self-sufficiency programs to help them 
achieve economic independence.
    There is no doubt that CSBG funding is the glue that 
sustains CAA's agencies and their ability to provide critical 
resources and tools to help low-income people. I hear from my 
constituents that CSBG funding has been particularly helpful 
recently as the unemployment rate rises. The state budget cuts 
in social services have also had an extraordinary impact on 
low-income people.
    I am concerned that the President has continually proposed 
funding cuts for this successful block grant. I am pleased that 
in my role as Chairman and Ranking Member of the Appropriations 
Sub-committee that funds CSBG, I was able to significantly 
increase funding for CSBG which in FY03 received $729 million. 
And, in the bill that recently passed the Appropriations 
Committee I was able to minimize the $150 million cut the 
President proposed in his budget. I plan to work hard to make 
sure funding for this effective anti-poverty program is 
maintained and improved.
    I look forward to working with members of the Committee and 
Administration on bipartisan legislation to build on the 
longstanding success of CSBG as we continue to provide the 
tools necessary to help people achieve self-sufficiency, 
especially in these difficult economic times.

STATEMENT OF WADE F. HORN, ASSISTANT SECRETARY FOR CHILDREN AND 
     FAMILIES, U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Mr. Horn. Thank you, Mr. Chairman. It is good to see you 
again, and I am very pleased to appear before you today to talk 
about the President's plan to reauthorize the Community 
Services Block Grant Act.
    The administration strongly supports the concept of 
community-based solutions to issues related to poverty 
reduction, and hence we strongly support the reauthorization of 
the CSBG Act.
    My written statement discusses each of the programs under 
CSBG; I will limit my oral remarks to two programs under the 
Act that are the focus of the administration's reauthorization 
program, the Community Services Block Grant itself and the 
Community Economic Development Program.
    The cornerstone of our reauthorization proposal is to 
strengthen accountability of CSBG to ensure that this 
significant source of support for low-income families and 
communities is achieving the best results possible. CSBG 
services are administered, as you know, in localities across 
the country, primarily by a network of 1,100 community action 
agencies, or CAAs, in coordination with other neighborhood-
based entities. CAAs have for nearly four decades now garnered 
experience in addressing the problems of low-income individuals 
and families.
    However, annual awards are not open to competition, and the 
current law does not provide for a consistent means of 
assessing minimum standards of performance by community action 
agencies in order to receive funding.
    To address these concerns, the President's 2004 
reauthorization proposal calls for the development of and 
adherence to a common core of national outcome measures for 
agencies funded under the CSBG, as well as the design of a 
means to review, monitor, and, if necessary, remove local 
organizations that are not achieving good results. This builds 
on the 1998 reauthorization of CSBG, which mandated that by 
2001, States be accountable for the performance of their CSBG 
programs through a performance measurement system. States could 
design their own system or they could replicate the Secretary's 
model program, the Results-Oriented Management and 
Accountability System, known as ROMA.
    We plan to use the ROMA foundation as the basis for 
establishing the national outcome measures. By building this 
requirement into statute, more consistent data would be 
collected, and program outcomes evaluated to ensure that CSBG 
programs are effectively serving at-risk individuals and 
communities.
    Organizations that are not found to be performing at an 
acceptable level could lose their designation as a service 
provider for CSBG if acceptable corrections are not made. A 
State-run competition would be held to designate new community 
action agencies to replace the agencies that fail to meet the 
acceptable standards.
    Faith-based organizations as well as other nongovernmental 
community-based organizations would be eligible to apply for 
funding under the proposed revised authority.
    Our objective is to have consistently applied outcome 
measures to ensure that all agencies administering CSBG can 
assess their programs' effectiveness and are accountable for 
the services supported by the program.
    Once enacted, we will be better-equipped to ensure that 
CSBG funding is made to local community organizations that are 
effective in achieving the purposes of the Act.
    Along with the block grant, the CSBG Act provides the 
Secretary with discretionary authority to use up to 9 percent 
of the Community Service Block Grant funds to support 
employment for community development activities.
    Our reauthorization proposal would maintain this authority 
to support funding for the Urban and Rural Community Economic 
Development Program. The Community Economic Development Program 
funds competitive grants to locally-initiated private, 
nonprofit community organizations called community development 
corporations, for projects that create employment, training, 
and business opportunities for low-income community residents.
    In the context of this reauthorization, the administration 
proposes to strengthen the capability of this program by 
increasing accountability and monitoring and expanding the pool 
of applicants by redefining entities eligible to receive 
funding to include other faith-based and community-based 
organizations. We believe that by casting a broader net, we can 
make this program work even better for low-income communities 
and individuals.
    In conclusion, the administration believes that these 
programs are an important part of our Nation's commitment to 
reducing poverty, but that objective cannot be achieved if we 
merely seek to maintain the status quo. The President's 
proposal puts forth the framework for a 21st century model of 
addressing poverty that requires uniform accountability, 
supports competition to enable different ways of approaching 
the problem, and makes certain that the programs supported by 
funds under the Community Services Block Grant Act provide the 
highest quality of service.
    We look forward to working with this committee as it 
pursues reauthorization of this important program. I would be 
very pleased to answer any questions that you might have.
    [The prepared statement of Mr. Horn may be found in 
additional material.]
    Senator Alexander. Thank you, Mr. Horn.
    Senator Jeffords is here, the former chairman of our full 
committee. Senator, I have already introduced Mr. Horn and the 
other witnesses, and it is time for questions of Mr. Horn, but 
I wonder if you have some comments that you would like to make 
at the outset.
    Senator Jeffords. No. I will just go right to questions; 
that is fine.
    Senator Alexander. OK. Then, I will ask a couple, if that 
is all right, and then we will see if Senator Jeffords has 
some.
    Let me ask a larger question about coordination of 
community services. One of the things that always intrigues me 
as I work in this area is that we have an inevitable tendency 
here to look at the world from here down instead of from the 
individual, and when I am in Morristown, TN or Maryville, TN, 
and I hear about all these programs, it always occurs to me--
how would an individual go about finding out what all these 
programs are?
    I know, for example, in the area of early childhood, 
prenatal through 8, I think we have counted 69 different 
Federal programs, plus Head Start, and if I were working in my 
home community, which I have before, on prenatal through K 
through 8, it would help me to know what all those different 
programs are.
    There are 1,100 community action agencies. There are 9,000 
Head Start centers across the country--something like that.
    And you must have thought about this and worked hard on it 
given your extensive involvement in the area--what can we do to 
make more intelligible to people in communities the large 
number of Federal programs and Federal dollars that are 
available for social services?
    Mr. Horn. Well, I think you have identified a very 
important issue, and I think that you are precisely correct. 
Sometimes we who work and live in the Washington, DC area see 
it from our perspective; but from the ground perspective, 
someone who is in need of services, what they know is not that 
there might be 55 different spending authorities in the 
Administration on Children and Families, but what they want to 
know is, I need help with housing today, or I need help with 
child care today, and where do I go to get that?
    There are lots of different entry points for a single 
client to go into, but there is often not a single place where 
they can go to find out about the array of supports that may be 
available for that individual given what their unique needs 
might be. I think that is one of the strengths of the community 
action agencies, that they often bring together a variety of 
these different resources and funding streams and can 
communicate to individual clients not just a single-purpose 
service but rather the array of services that may be available 
to them, particularly those services that are directed toward 
poverty reduction.
    But still, there are even limits, unfortunately, to 
coordination because of the nature of the highly categorical 
funding streams, each with its own reporting requirements, so 
the typical community action agency may be coordinating 15 or 
20 different funding streams, they may have 15 or 20 different 
reporting requirements, they may have different eligibility 
criteria, and it may be almost as hard for the service provider 
to negotiate all of that as for the individual.
    One thing that the administration would like Congress to 
consider in the context of a different bill, TANF 
reauthorization, is the idea of allowing States to experiment 
or innovate with the so-called super-waiver authority that the 
President has proposed for putting these various funding 
streams together more in sort of a seamless system of service 
delivery.
    At the very least, for example, a State could say, Look, 
what we would like to do is have one data collection system and 
reporting requirement, because we are often serving the same 
clients. We do not want to tear down this program or that 
program, but we sure as heck could save a lot of money and 
redirect them into services if we had just one data collection 
system that could report on the report on the services that are 
being provided.
    And from my perspective, if you were to do that, you would 
start with the family, the client, and work out as opposed to 
the way data collection systems are currently structured, which 
is to start with the service and then ask the question who are 
we serving. When you start that way, it often sounds as though 
there is all this unmet need.
    For example, in Head Start, we have a data collection 
system for Head Start, and we ask who is being served, and we 
pretend as if everybody who is not in Head Start is not being 
served. We know that is not true. A lot of those kids are in 
State preschool programs, some are in child care programs. But 
we do not have a single system of data collection that would 
tell us that information, so it a long-winded, and I am sorry 
for the long-winded answer to your question, but you have hit 
precisely on a very important issue and one that we in the 
administration are struggling with and trying to figure out how 
to create a truly seamless system of support services so that 
an individual knows where to go, and when they get there, the 
service provider knows all of the various services and supports 
that are available to that family.
    Senator Alexander. Would it even be possible for an 
individual working in social services, let us say in Knox 
County, TN to find a list of all the Federal programs that 
might serve, let us just say children prenatal through 8 in 
Knox County, TN, or is that money distributed by county?
    Mr. Horn. Senator, it is hard for me to know where all the 
funding streams are for these programs, because I have 56 
different spending authorities at ACF, but there are also 
spending authorities for the same populations not only across 
other operating divisions in HHS but throughout the Federal 
Government. It is a maze that is difficult to negotiate, and 
from the local service provider's standpoint, it is not 
impossible, and certainly a lot of them are doing a really good 
job of doing it--and again, I think that is one of the 
strengths of community action agencies--but it is difficult, 
and I think the challenge before us here in Washington is to 
make sure we are not imposing any barriers that make it 
difficult at the local level.
    Senator Alexander. You have not said this, but of course, 
the real responsibility for that comes back to the Congress, 
because it is the Congress that creates all the programs, and 
then you have the responsibility to administer them.
    I look forward to working with you more on the issue with 
this subcommittee particularly on the issue of looking for ways 
on programs that have to do with children and families, not 
just with CSBG but with other areas under your jurisdiction as 
well as the Department of Education, to think of many different 
ways--you are suggesting one with the welfare bill, TANF--but 
to see if there are other ways, other options, of rationalizing 
all these programs and making it simpler for individuals and 
communities to get into whatever service it is they need.
    I have another question, but I think what I will do is stop 
now and ask Senator Jeffords to ask whatever questions he would 
like, and then, if there is time, I will come back with mine.
    Senator Jeffords. Thank you very much, Mr. Chairman.
    Dr. Horn, in your testimony, the two main criticisms of the 
community action agencies are that the agencies are static and 
that they lack appropriate accountability. Those conclusions 
are not consistent with our experience in Vermont. However, the 
President has proposed block grants for the child welfare 
system and the Head Start programs.
    If the current CSBG block grant is static and 
unaccountable, why should we be moving to block-grant other 
programs that play such important roles in our communities?
    Mr. Horn. Well, with all due respect, Senator, we are not 
proposing to block-grant either child welfare or the Head Start 
Program. In both of those programs, what we are proposing is a 
State option that would allow the State to come up with a plan, 
in the case of Head Start, to better coordinate Head Start with 
State-administered preschool programs, but we are not simply 
saying, Hey, look, what we would like to do is take the Head 
Start appropriations, apply a State formula to it, send the 
money out to the States and have them administer it, so long as 
they do it within the broad context of the authorizing statute.
    That is what block grants do, as you know, but that is not 
what the President is proposing for the Head Start Program. 
Similarly in the child welfare proposal, we are not proposing 
to block grant child welfare but rather simply to provide an 
option to the States in which, if they chose to--and they do 
not have to choose to--they could get a fixed sum of money over 
5 years which they could spend more flexibly than they can 
currently spend under the Title IV Foster Care Program.
    I do not think there is anything inherently wrong with a 
block grant. The TANF Program, for example, is a block grant, 
and we think the TANF Program is working pretty well, has a 
good track record, although we would like to see some 
improvements.
    Our criticism is not that this is a block grant, and block 
grants are inherently bad, but rather that in this particular 
case, there is not enough accountability that we think needs to 
occur to assure the American taxpayer that the investment we 
are making in this program is achieving results. So what we are 
suggesting is that we put that results-oriented system in 
place, and my guess is that what we are going to find is that 
many community action agencies are doing a terrific job in 
their communities helping to reduce poverty and helping people 
lift themselves out of poverty.
    So this is not a criticism of block grants per se, but we 
do think it is time for us to overlay an accountability system 
on the community action agencies.
    Senator Jeffords. Your proposal calls for the development 
of and adherence to national outcome measures for community 
action agencies. This would move the agencies from local to 
national standards. The administration's Head Start proposal 
calls for States to develop their own Head Start standards to 
move from national standards to local standards. Although we 
have seen few details, the child welfare proposal seems 
similar.
    Why is the administration pushing in the opposite direction 
on these programs--and I might add, you oversee them all.
    Mr. Horn. Yes, I do. And again, I am not sure that we are 
comparing apples with apples here. In fact, I think there is a 
great similarity between what we are suggesting in CSBG and 
what we are also doing administratively through the Head Start 
Program. As you may be aware, back in the 1998 reauthorization 
of Head Start, there was a requirement similar to what happened 
in CSBG, that local agencies develop an outcomes-oriented 
system that they would apply at the local level. And what we 
have found is that that is not a very useful tool for us to be 
able to oversee and manage the Head Start Program, because what 
we have is 1,300 Head Start grantees, and they have 1,300 
different ways of determining outcomes.
    So we do not know, for example, looking at that disparate 
data, whether this grantee is achieving good outcomes compared 
to that grantee. So one of the things we are doing in Head 
Start administratively is implementing, very similar to this 
proposal--but we have statutory authority to do it in the Head 
Start Program--a common core of outcome measures that would be 
applied across all Head Start programs in the country. It would 
still allow flexibility for locally-determined outcome measures 
as well, but there ought to be a common core of outcome 
measures that everybody assesses. That is what we are doing in 
Head Start, and that is what we are proposing here.
    We are not saying that community action agencies should 
give up the idea of locally-determined outcome measures. That 
would be giving in to precisely the mistake that we here in 
Washington sometimes make, which is believing we know best for 
every community in America. But rather, it seems to us that it 
is not unreasonable to ask that each community action agency, 
given there is some core similarity in their mission--that is, 
poverty reduction--that there be some core set of common 
outcome criteria that they apply to all community action 
agencies.
    So we actually see a great similarity between what we want 
to accomplish through CSBG and what we are also 
administratively moving toward in the Head Start Program.
    Senator Jeffords. Thank you.
    Thank you, Mr. Chairman.
    Senator Alexander. Thank you, Senator Jeffords.
    I have one other area that I would be interested in your 
comments about. Some of the programs for CSBG are funded 
directly from the Federal Government, and the community 
economic development is one. And it is there that you talk 
about enlarging the pool of applicants to include faith-based 
and community-based organizations. I want to make an 
observation about that and see what you think.
    Have you considered just making it permissible for the 
community action agencies themselves to work with faith-based 
organizations, because my guess is that most of them already 
do. My experience has been that in Nashville, I was chairman of 
the Salvation Army's Red Shield initiative, which was the 
Nashville effort over a period of 6 years to help individuals 
move from dependence to independence under the Welfare Reform 
Act which was very successful. And when I was listening to the 
debate in Washington about separation of church and State and 
faith-based--all that discussion--I realized that in our own 
community, we were all head-over-heels doing that. I mean, the 
Salvation Army was the chief sponsor of this coalition, which 
was basically a mall of social services. The City of Nashville 
was the manager and funder of the local child care centers. In 
other words, everybody was all mixed up in everything, and 
nobody had even stopped to think about the fact that we were 
mixing up in effect the church and the State in our little 
social services activity there.
    Then, someone wrote me a letter and said that the First 
Amendment, the Separation of Church and Powers provision, was 
intended to apply to the Federal Government, that looking back 
to Europe where there was a central government and a central 
church, that our Founders were trying to stay away from that, 
that our Scotch-Irish pioneers got tired of paying taxes to 
support the Bishop of the Church of England, and they didn't 
want a central church.
    So my practical experience is that it is fairly easy to 
work out relationships with faith-based organizations if you 
are working within a community. Whenever you elevate the whole 
discussion to Washington and begin to have a Federal 
application of that, everyone begins to get a little nervous.
    I wondered how you thought this might--your idea here about 
involving faith-based agencies--might work.
    Mr. Horn. As a point of clarification, first, under the 
CSBG, community action agencies already can be faith-based 
organizations. In fact, as you know, there is a charitable 
choice provision in the CSBG Act.
    What we are suggesting is under the discretionary program 
that is a direct Federal to local grantee program, the 
Community Economic Development Program, that currently, the 
only eligible applications are community economic development 
corporations, and they are not the only ones, however, that 
have a history of working in local communities on poverty 
reduction and economic development. There are other community-
based organizations and faith-based organizations that also 
have a history of doing that.
    All that we are suggesting is that when it comes to 
competing these grants that we open up the eligible pool so 
that we get the best agencies who have the best record in 
helping local communities in terms of economic development. And 
this is not a knock against community economic development 
corporations; it is simply trying to expand the pool.
    Clearly, there are church and State issues when you are 
talking about providing direct funding from the Federal 
Government to a local faith-based organization. Certainly a 
faith-based organization who was successful in getting these 
moneys could not, for example, discriminate on the basis of 
somebody's personal faith perspective in delivery of services. 
A faith-based organization could not use the money to 
proselytize.
    But as you know, the President feels very strongly that we 
ought to level the playing field wherever it is appropriate to 
ensure that faith-based organizations are not necessarily shut 
out from competition in becoming partners with the government 
in delivering services, and the question ought to be are they 
effective, not are you faith-based or not faith-based.
    But at the same time, it is clear that there are 
limitations on those faith-based organizations who apply, and 
we take as our responsibility as overseers of these programs 
that if a faith-based organization is successful in applying 
for Federal funds that we make sure they understand that there 
is a deal here to be had, that in exchange for accepting 
Federal funds, you cannot proselytize and you cannot 
discriminate in the delivery of services.
    So I think there are sufficient safeguards administratively 
that will ensure that church and State separation is preserved.
    Senator Alexander. Senator Dodd, who is the ranking member 
and former chairman of this subcommittee, is very interested in 
the proceeding. He is on the floor engaged in debate. He had 
some questions for Dr. Horn, but he will submit those for the 
record, and he wanted me to say that in case he does not get 
here.
    [Response to questions of Senator Dodd were not received at 
press time.]
    Senator Alexander. Senator Jeffords, do you have any other 
questions?
    Senator Jeffords. Yes. I have one final observation I would 
like to make. The administration is saying, quote: ``Head Start 
is effective, but not effective enough. It needs to be more 
local,'' while here, the administration is saying CSBG is 
effective, but not effective enough, and it needs to be more 
national.
    I am very concerned about these proposals as to why the 
divergence of opinion here. There is no logic or consistent 
approach here, it would appear to me. It seems that the only 
goal of the administration is to undermine the success of 
effective government programs.
    While we can always strive to improve programs, I am 
concerned that the message here is that no program, no matter 
how effective, is safe. I want you to know, Dr. Horn, that I am 
very concerned about these proposals that seem to be 
conflicting. If you have a comment, I would love to hear it.
    Mr. Horn. Well, as a clinical child psychologist who has 
spent his career advocating for improving the well-being of 
children, I can assure you that none of the administration's 
proposals that we are discussing here are designed to undermine 
effective services.
    I think the difference between CSBG and Head Start is that 
CSBG does not have the kind of outcome and accountability data 
that we have in place already for Head Start. For example, we 
have a national random sample of children in Head Start whom we 
follow every year--a different sample, obviously--through 
something called FACES, the Family and Children Experiences 
Survey. And that is where we get the information that tells us 
that kids do improve in Head Start, but they still lag 
significantly behind their more economically advantaged peers. 
And the challenge there is to improve that effectiveness.
    Here, I think the challenge is to get a system in place 
that will tell us how effective the community action agencies 
are. And again, I have every reason to expect that we will find 
a number of them are quite effective. But we don't have that 
system in place yet, and that is what we are trying to do is 
get that system in place.
    Senator Jeffords. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Alexander. Senator Dodd, I have introduced the 
witnesses, and Dr. Horn has testified and submitted his 
testimony; Senator Jeffords and I have said what we had to say 
and asked our questions. So it is your turn, and after that, we 
will invite the second panel of witnesses to come up.
    Senator Dodd. Thank you, and I apologize. I was just 
offering an amendment on the floor of the Senate to the State 
Department authorization bill, so I apologize for being late, 
but if you get a chance to offer an amendment on the floor, you 
had better take advantage of it; it may be light-years before 
you get another opportunity. Those of you who are familiar with 
how the Senate operates will appreciate my tardiness.
    So I would ask unanimous consent if I could, Mr. Chairman, 
to include an opening statement in the record and will just 
express some general views.
    Senator Alexander. It will be done.
    [The prepared statement of Senator Dodd follows:]

                   Prepared Statement of Senator Dodd

    Mr. Chairman, I want to thank you for convening this 
hearing on the Community Services Block Grant.
    I have worked with Community Action Agencies throughout my 
career in the Senate, particularly those in Connecticut, and 
have long been impressed with their innovative and creative 
efforts to address the needs of individuals and families living 
in poverty.
    The Community Action Agencies have a very difficult job. As 
we all know, there is no magic wand to eliminate poverty or the 
impact poverty has on families, particularly families with 
young children. I wish we could give every Community Action 
Agency a magic wand. But, instead, we rely on them as they each 
conduct a community needs assessment and set out to 
individually meet their specific needs within each diverse 
community.
    CSBG funds local programs. The needs within each community 
vary tremendously. There is a common thread that CSBG serves 
poor families, increasingly working poor families, but no two 
communities really are the same. That's what makes each 
Community Action Agency unique.
    In 2001 alone, a quarter-million low-income individuals 
called upon their local Community Action Agencies in the state 
of Connecticut for assistance. With the current economy, the 
demands on these agencies are on the rise nationally.
    These families, largely working poor families, have no 
margin for error or change: rising fuel prices alone, for 
instance, can put their hard-earned self-sufficiency in a 
vulnerable state. In Connecticut, individuals in crisis will 
turn to local Community Action Agencies since they are uniquely 
positioned to pull together an individualized set of resources 
and supports to meet the needs of each client.
    The variation and diversity found across Community Action 
Agencies demonstrates the success of the statute in doing what 
it set out to do: create local responders with the flexibility 
to vary their efforts as needed in order to meet the particular 
and immediate demands of their low-income populations and 
communities.
    CSBG provides a framework for a national system of local 
activists: government leaders, business and community members, 
coming together to mobilize local resources for monitoring, 
improving and addressing community-wide responses to poverty. I 
continue to be impressed with the ability of Community Action 
Agencies to use CSBG funds to leverage other resources. 
Nationally, every CSBG dollar is matched by over $14 from other 
sources.
    CSBG supports over 1,144 entities that create a nation-wide 
network of local first responders in combating the causes and 
effects of poverty. I thank each of you, not only for 
testifying today, but for your daily commitment and involvement 
in these programs and agencies. I look forward to learning how 
we can use this reauthorization as an opportunity to further 
improve and strengthen our efforts to combat poverty.
    Senator Dodd. Let me ask a few questions if I can, and my 
staff tells me that a number of the questions I would have 
asked have already been raised, so I will try to keep this 
relatively brief.
    First of all, welcome. It is a pleasure to have you with 
us.
    To begin, having read over your testimony, there was a 
White House press release in August 2001, which I have with me 
and will be glad to include in the record, that singles out the 
Community Services Block Grant as one of the rare--and I am 
almost quoting here--one of the rare programs that examines 
through impact evaluations whether the funds achieve the 
desired results.
    I am also aware that ROMA is a mandated accountability 
system that was pioneered by the community action agencies 
themselves, not mandated by the administration.
    Now ROMA is a mandated component of all local agencies and 
is nationally recognized as the leading government innovation 
by folks who ought to know, such as the Kennedy School of 
Government at Harvard.
    What happened, I guess the question is, between August of 
2001 and today to change your mind about the accountability 
standards or efforts under the community action agencies that 
they operate?
    Mr. Horn. First of all, just as a point of clarification, 
ROMA is not a mandated system in terms of local agencies. What 
is required in the 1998 reauthorization, as you know, is that 
every community action agency must have a system of assessing 
results and the impact of their services. The local agencies 
can come up with their own, States can come up with their own 
system and apply that to the local agencies, or the local 
agencies can adopt the Secretary's model program known as ROMA.
    So ROMA is not mandated at the moment for all community 
action agencies. But it is true that ROMA was developed in 
partnership as a bottom-up, not top-down, system of 
accountability that many--not all, but many--community action 
agencies in fact do participate in. And what we are suggesting 
is that we have statutory authority to require a common core of 
outcome measures, which will be largely based upon the ROMA 
system, be applied to all community action agencies so that we 
can have for the first time consistent data across the board.
    So we think that ROMA is a good system but at the moment do 
not have the statutory authority to require the community 
action agencies to actually deliver it. I think it is a 
testament to that system that so many do, but there is not a 
statutory authority to require it.
    Senator Dodd. In your testimony, you give these community 
action agencies sort of mediocre performance grades. That is 
how I read your testimony. Is that an accurate description?
    Mr. Horn. I think the accurate description is that we do 
not have a good sense about how effective they are, and that is 
what we are trying to do is implement a system to get a better 
sense of that in terms of impact, not in terms of just process.
    Senator Dodd. Because when you look at the HHS Annual 
Agency Performance Reports and the statistical reports, it 
looks as though they have exceeded targets set by the 
Department; is that not true?
    Mr. Horn. It is true that there are some targets that we 
set that----
    Senator Dodd. Overall, they exceeded them.
    Mr. Horn. Well, again, many of them unfortunately are 
process-oriented and less outcome-oriented, and what we would 
like to do is a more outcome-oriented system.
    Senator Dodd. You are still calling that mediocre. You 
know, most government agencies, when they get those kinds of 
numbers, I would call it better than mediocre. I wish we could 
have that kind of results in other agencies.
    Mr. Horn. I do not think I would characterize my testimony 
as indicating that we have a strong belief that we have 
mediocre results in this program.
    Senator Dodd. All right. I appreciate that.
    The discretionary programs that you mentioned such as the 
Rural Community Facilities Grant Program, aren't they in fact 
not duplicative in nature, but rather a program that supports 
the start-up and planning stages of what down the road might 
lead toward EPA funding but for which EPA does not fund at the 
preliminary planning level. The need in rural America is 
obviously very great--and I know you know that. Close to $14 
billion is necessary to help rural communities adequately their 
wastewater needs, and if we eliminate the Rural Community 
Facilities Program, how will remote and small communities--I 
have some in my State despite the size of my State, and I know 
that my chairman has many rural and more remote communities in 
his larger State--how do they tap into the expertise needed to 
successfully navigate the extensive and thorough planning 
process that must predate any application to the USDA and EPA 
if they don't have that kind of support and help?
    Mr. Horn. Well, we believe that the Rural Community 
Facilities Program is duplicative of programs both in the EPA 
and the USDA, and not only do we think they are duplicative, we 
think that the expertise for actually managing those kinds of 
programs is more directly found in EPA and USDA than in HHS.
    Senator Dodd. You really think they are that duplicative?
    Mr. Horn. Yes.
    Senator Dodd. All right. I have a couple more questions, 
Mr. Chairman, but in the interest of time, we will submit a 
couple more to you in writing. And I am glad at least to hear 
you think that your report was not a mediocre analysis. I will 
consider that my victory for the afternoon.
    Senator Alexander. Mr. Horn, thank you very much for 
coming.
    I will now ask the second panel to come forward and take 
their seats.
    Senator Dodd, I was saying a little earlier that we have 
David Bradley, who has been deeply involved with the community 
action agencies for a long time; we have three individuals who 
have taken the advantage of being a part of CSBG services whom 
we welcome especially today; and we have Mr. McKain from the 
State of Connecticut, who provides those services. So we have 
testimony already, but if you might summarize your testimony or 
tell your stories, we will start with Mr. Bradley and go to Mr. 
McKain next, and then we look forward to hearing from the three 
of you.
    Mr. Bradley, welcome.

 STATEMENTS OF DAVID A. BRADLEY, EXECUTIVE DIRECTOR, NATIONAL 
  COMMUNITY ACTION FOUNDATION; PHILLIP McKAIN, PRESIDENT AND 
  CHIEF EXECUTIVE OFFICER, CTE, INCORPORATED, AND PRESIDENT, 
 CONNECTICUT ASSOCIATION FOR COMMUNITY ACTION; NATHANIEL BEST, 
  KNOXVILLE, TN; WINIFRED OCTAVE, WORCESTER, MA; AND MICHAEL 
                      SAUCIER, BERLIN, NH

    Mr. Bradley. Thank you, Mr. Chairman, and thank you Senator 
Dodd. I have testimony that I would like to just submit for the 
record and give some brief oral comments.
    I must express my gratitude for not only the invitation to 
appear here today but even more for this subcommittee's history 
of concern and support of community action, the Community 
Services Block Grant, and most important, the low-income 
communities it serves.
    Since its beginning in 1964 through the creation of the 
Community Services Block Grant in 1981 and up to today, every 
reauthorization that this committee has worked on has resulted 
in the strengthening, improvement, and further focusing of the 
Community Action Program.
    We know that it can be further improved, and as always, we 
have some proposals that we are presenting to you in 
anticipation of a strong bipartisan reauthorization effort.
    There is much that we agree with the administration, but I 
must say that as an important partner in fighting poverty, 
there are a couple of things that overall are disappointing 
about the administration's views on the Community Services 
Block Grant.
    First, in the budget submission, there was discussion that 
community action agencies are a ``static'' group of agencies. 
The word ``static'' can mean a couple of things--one, community 
action agencies are not updating their programs to address the 
poverty conditions of today. Our witnesses and the panelists 
here today will tell a different story about how community 
action agencies and the Community Services Block Grant makes a 
real difference in today's lives.
    For the record, I have prepared innovative approaches going 
on in every State, for every member of the subcommittee--
examples of the laboratory innovation of meeting today's needs. 
I would like to also submit that for the record.
    The other meaning of ``static'' is the same old 
organizations getting CSBG funds. This complaint could reflect 
an honest mistake about the role of Congress and how they have 
assigned community action agencies their unique 
responsibilities in the low-income community.
    In 1964, the Nation decided to establish permanent local 
institutions run by boards that represent a partnership with 
the low-income community, business, and private nonprofits 
including religious communities and local government. Board 
structure was engineered to allow stability, legitimacy, and 
the freedom to customize local anti-poverty responses using 
whatever resources could be developed.
    This committee and all of your predecessors, regardless of 
the party holding the chair, has maintained that the design and 
principle of community action is worth continuing. Every 
grassroots group in the country sometimes dub themselves 
``community actin'' nowadays, but the network of 1,100 CSBG 
grantees is different. Its members have the credibility and 
integrity to administer about $9 billion a year, including over 
half a billion dollars from private donations. They serve more 
than 13 million people a year, one out of every four people 
living in poverty, with integrated, responsive programming.
    And of course, if you support a national institution of 
community action, you need to ask what CSBG contributes to 
community action agencies to do their job. Some thing that CSBG 
is basically funding for direct services, projects, or even 
grants to individuals--money that makes up the shortfall in 
other government funds--but it is more than that.
    CSBG is the money that community action agencies use to do 
the unique local job they are assigned. I would like to quote 
to you the best description I think ever written of community 
action, and I quote: ``While the operation of programs is the 
CAA's principal activity, it is not the community action 
agencies' primary objective. Community action agency programs 
must serve the larger purpose of mobilizing resources and 
bringing about greater institutional sensitivity. The critical 
link between service delivery and improved community response 
distinguishes the community action agency from other agencies. 
A CAA's effectiveness, therefore, is measured not only by the 
services which it directly provides, but more importantly by 
the improvements and changes it achieves in the community's 
attitudes and practices toward the poor and in the allocation 
and focusing of public and private resources for anti-poverty 
purposes.''
    Mr. Chairman, those words were expressed by then OEO 
Director Donald Rumsfeld, published in 1970. They have 
reinforced and clarified the community action mission for 33 
years.
    Our Results-Oriented Measurement and Assessment system 
which Senator Dodd was involved with in 1998 in creating the 
environment to measure outcomes--called ROMA now--does not just 
measure CSBG results--it measures community action agency 
results, all $9 billion, and 13 million served by over 500 
different combinations of projects.
    As Senator Dodd pointed out, in 2001, it was singled out by 
the White House as an innovative program for measuring agency 
results; and as Senator Dodd also pointed out, it was a 
semifinalist at the Kennedy School of Government for the 
prestigious Innovations in Government Award.
    Since 1981, we have tried through every reauthorization to 
require better performance for all partners in this program. 
With that, we do not disagree with the administration. We want 
the program--all particular partners in the program--to do 
better, to have more measurable outcomes, and to continue 
helping the low-income. But to do that, we also need to make 
sure that during this reauthorization, as we look at the role 
that community action agencies play and their outcomes, that we 
also assess the effectiveness, the performance, and the 
partnership of both State and Federal.
    We have given the committee some good ideas, we think, on 
reauthorization, and we are proud of those ideas; we are proud 
of how we think we can improve the Community Services Block 
Grant.
    But just as important as the pride we take in what we offer 
the committee as our suggestions for reauthorization language, 
we are also proud of the witnesses here today who will be able 
to tell you a story about, that community action agencies and 
the Community Service Block Grant have made a real difference 
in their lives and communities.
    Thank you very much.
    Senator Alexander. Thank you, Mr. Bradley. Do you remember 
who was Mr. Rumsfeld's assistant in 1970?
    Mr. Bradley. Yes. Are you ready? Some guy named Dick 
Cheney.
    Senator Alexander. That was him. [Laughter.]
    Senator Dodd. He probably wrote that.
    [The prepared statement of Mr. Bradley may be found in 
additional material.]
    Senator Alexander. Mr. McKain, thank you for being with us 
today.
    Senator Dodd. If I may, Mr. Chairman, Mr. McKain is my 
constituent----
    Senator Alexander. Why don't you introduce him?
    Senator Dodd. Well, this is a wonderful human being, and we 
are very proud of him in Connecticut. He has done more than 30 
years of commitment to community action and to serving the 
underprivileged. In fact, if you list--and I do not know how 
you do this--I read the list of organizations that he is a 
member of in the Greater Stamford Area in Connecticut, and it 
is breathtaking. In addition to that, he is very active in his 
own church and is just a remarkable human being. But for 10 
years, he has been a responsible steward for CSBG's mission in 
the area of successfully advancing local and State 
accountability, and currently is president of the Connecticut 
Association for Community Action Agencies throughout the State; 
that is how highly-regarded and respected Mr. McKain is.
    It is truly an honor for me, Mr. McKain, as a member of 
this committee, to have you here with us today and to thank you 
publicly for a lifetime of service to your community. You are a 
true patriot, I want you to know, and we thank you.
    Mr. McKain. Thank you, Senator, very much. My mother would 
be very happy to hear you say that. She taught me community 
service.
    Mr. Chairman and Senator Dodd, I really want to thank you 
for inviting me here to testify on behalf of the 
reauthorization of CSBG. I was here some 5 years ago to talk 
about CSBG and to really talk about the Results-Oriented 
Management and Accountability System, which community action 
agencies have really worked hard at implementing, so I want to 
again come to tell you today what it has all meant.
    You have my testimony, and I am going to submit it for the 
record.
    I also want to submit for the record from the commissioner 
of the Department of Social Services, Patricia Wilson Coker, 
which she wrote to Senator Dodd on June 30 in which she talks 
about the value of CSBG to the State of Connecticut and how she 
is partnering with the community action agencies to in fact 
implement some very, very innovative approaches to human 
services delivery in the State of Connecticut.
    That is really what I want to talk about, because Chairman 
Alexander, when I was listening to your opening remarks, you 
talked about the array of services and how do we think 
differently about how we coordinate services and help the 
client or the customer--I like to call them ``customer''--how 
we help the customer of our services be able to really enter 
into the system and also get out of the system and become self-
sufficient in a way that is not confusing to them.
    I want to really commend the Senate and Congress for 
passing the Community Services Block Grant, because the genius 
of the Community Services Block Grant is that you have in your 
own hands right now at the Federal level a block grant program 
that in fact can be the basis for bringing all of this 
together. That is what we are doing in Connecticut.
    We looked at the system in Connecticut and said that the 
fragmented and confusing system for the Department of Social 
Services delivery system needed to be modeled, frankly, after 
what we do at community action in terms of a comprehensive 
approach where the client comes in and takes a look at all the 
services and getting them to them.
    So we got together and, using CSBG funds, were able to put 
together a technology-oriented system where we bought the 
software and incorporated the Results-Oriented Management and 
Accountability outcomes into that system and sat down with 
Governor Rowland and his staff and the commissioner of the 
Department of Social Services and said this is a new way in 
which we should be taking a look at the delivery of human 
services.
    As a result, the commissioner turned to the community 
action agencies for implementing programs for the disabled in a 
time of crisis when they were faced with budget cuts, because 
in her words, she said the community action agencies, through 
their CSBG-funded programs and how they have been able to come 
together is the only system at the State level that she can 
turn to to make sure that the low-income and the disabled and 
those who are underserved can be served.
    So, Senator, when you talk about how do we help the client 
navigate through this system, you have the Community Services 
Block Grant that can be designed to do that. And I would say 
that that is not a static system. The beauty of the Community 
Services Block Grant in Connecticut is that we can respond very 
quickly to needs. We have now created what we call the Human 
Services Infrastructure Program which in fact will be a one-
stop self-sufficiency. We partner with DSS, the Department of 
Social Services, but also InfoLine, which is a Statewide 
information and referral system funded by the United Way, in 
which we will in fact have one portal which low-income persons 
can come through so they can then take a look at the array of 
services that their family needs. If they need DHHS eligibility 
for services, we get them there; if they need another sort of 
service, we get them there. But we keep a case management 
system going where we can in fact work with that family all the 
way through to self-sufficiency.
    That is what we are doing with CSBG funds, and it could not 
have happened without CSBG. So when you read the commissioner's 
letter, and you see the examples, you will see what the value 
of community services is all about, and what Dave Bradley is 
talking about when he talks about what we are all about.
    We are about change at the State level and bringing about 
innovation, but also more important, I want to talk to you 
about how we go about community change at the local level 
through CSBG. I can talk about my situation in Stamford. The 
Senator is correct. I am part of almost every board and 
commission in Stamford--but that is for a reason. The reason is 
because that is what the mission of the Community Services 
Block Grant is--to mobilize private and public resources to 
address the basic causes of poverty, and we do that.
    So the local community, for example, recently turned to us 
because Stamford, which is a highly affluent area, had a very 
serious issue related to affordable housing. They asked the 
community action agencies to bring together the business 
community, faith-based community, public officials, the 
nonprofit housing developers, the private developers, to bring 
about a situation where we can take a look at how do we create 
affordable housing for the working poor--the nurses' aides, the 
teachers' aides, even some of the local policemen, who have not 
been able to live in the community.
    What we did through that collaborative that we used--and 
CSBG dollars were involved--we were at the place where they 
met, we provided the food, the minutes of the meetings, and we 
kept everybody on task because everyone comes at things a 
different way. But that is the beauty of the Community Services 
Block Grant is bringing the community together to create an 
environment so that the needs of low-income people are not just 
met on the direct service level, but the environment is created 
in the community so that there is sensitivity to those needs. 
And as a result of that, Stamford has a zoning law. The mayor 
created a task force, and we now have recommendations for 
affordable housing; we have an inclusionary zoning law that in 
fact requires that at least 12 percent of the housing that is 
developed in Stamford, whether it is through a private 
developer or a nonprofit developer, has an affordability 
requirement along all the areas of income that exist, because 
as the Senator knows, in Stamford, CT, if you just do it by the 
standard HUD definition, a lot of people will still be left 
out. So we were able to be creative and create an income tier 
that in fact creates affordable housing as a result.
    This has not hurt the housing market. The developers are 
developing housing. We have created housing for, as I said, 
nurses and nurses' aides and teachers' aides. In fact, we have 
a goal of creating 300 units a year, and we are working on 
that. But that would not have happened, Senators, without a 
CSBG-funded entity having the trust of that community to bring 
this issue together.
    The other issue--and I know I am going over my time----
    Senator Alexander. Please finish, but we need to get to the 
other witnesses.
    Mr. McKain. I will finish. Let me just say that in fact the 
State turned to community action agencies because they knew we 
had a flexible funding stream in order to bring changes. The 
local community turned to us because they knew that we had 
trust and commitment to the poor so that we could bring about 
change. And individuals turned to us because they have changes 
in their lives, and the one thing that makes that happen is the 
Community Services Block Grant, and that is the genius of it, 
because they know that there is a flexibility there that allows 
them to meet their goals.
    So I want to thank you for allowing me to testify today, 
and I will be more than happy to answer questions.
    Senator Alexander. Thank you for taking the time to come 
today and for your service to our country and your community.
    [The prepared statement of Mr. McKain may be found in 
additional material.]
    Senator Alexander. Now, we asked a couple of our other 
committee members, our chairman, Judd Gregg, and our ranking 
member, Senator Kennedy, and then I did the same--we thought it 
might be interesting to hear from what Mr. McKain calls ``the 
customers.''
    So, Mr. Best--Pastor Best, I guess I should say--Ms. 
Octave, Mr. Saucier, I am going to ask each of you to take just 
3 or 4 minutes and introduce yourselves to us and tell us how 
you saw things from your point of view. And I cannot help--I 
hope you will excuse me, but Pastor Best is from Tennessee, and 
it is even better than that--there is only one movie that I 
have watched six times in my whole life, and it is, ``Oh, 
Brother, Where Art Thou?'' and he sang in it. So he is a pretty 
big deal to me just for that reason.
    So, Pastor Best, thank you very much for coming, and we 
welcome you to our hearing.
    Mr. Best. Thank you, Mr. Chairman and Senator Dodd.
    I am very honored to be here to speak on behalf of this 
great organization because it literally changed my life in so 
many ways. My daughter is serving in the navy right now, and 
she has just about completed her fourth year, but in her second 
year, she said, ``Dad, you really need to go back and finish up 
some old business in my life.'' I did not get my high school 
diploma, and I always wanted to go back and get it, but there 
were some things that I had achieved in the music field, and I 
was just ashamed, and I thought that maybe people would look at 
me strange or funny if I went to school to try to get my G.E.D. 
because of all the other accomplishments that I had made.
    But 1 day, my wife and I sat down with our daughter, and we 
talked about it once when she came home, and I said, ``You 
know, I am going to go back and do this. I am going to go and 
do it for you and my daughter.''
    So when I got to the school, there was a lady named Dr. 
Collins, and I said, ``I am here, I want to get my G.E.D., and 
I want to do it for my wife and daughter.''
    She said, ``I am sorry. You need to go back out the door.''
    I said, ``What do you mean?''
    She said, ``Well, if you are not going to do it for 
yourself first, then you are really just wasting your time.'' 
When she said that to me, a light just went off on me, and I 
said, Oh, my God, this is what it is about. I have to want it. 
So it just sparked something in me.
    So I went through the class, and I did get my G.E.D., and 
they were very kind to me during that time. They made me feel 
like I was family. It was not just an organization. They made 
me feel like family. And I wanted to be a part of it even after 
I got my G.E.D.
    So once I got that, it sparked up so much energy in me 
until I went out and started doing other things in music, and I 
was able to do that movie. Since that time, I was put in two 
Halls of Fame, I was able to sing at the Grand Ole Opry--things 
that I have always wanted to do as a child I was able to 
accomplish because of what I had gotten from them in that 
program. They pushed me in an area that I did not think I could 
go any more.
    After that, I wanted to be a part of it, so my wife and I 
started a scholarship fund in Nashville at Metropolitan Action, 
and it is designed for children who get their G.E.D., but they 
do not have enough money to get their books for school. So my 
wife and I wanted to do a scholarship fund for that purposes, 
and every year at the graduation, I go to Nashville and provide 
services as far as a system for the graduations. I just want to 
be a part of it.
    I was listening to what was being said today about the 
faith-based organizations, and I am a pastor, and I always look 
to see how the church can do more for the community. But when I 
heard that, I got to thinking about the fact that we have a lot 
of pastors and churches that will put people in positions for 
these types of things because they know them--``I know you, and 
you are my friend, so I will put you there''--but they do not 
really have the knowledge to be in those positions. That is why 
I feel really close to Metro Action, because they take time. 
And then, the Bible says ``Study to show thyself approve unto 
God; a workman needeth not be ashamed, but rightly dividing the 
word of truth.''
    I believe that these people who brought me through the 
program really care about what they are doing, and they study 
to make sure that you know what you are doing when you leave 
there.
    So I just want to say that whatever I can do to assist 
them, I want to be in there all the way, and I am very honored 
to be here to speak on their behalf.
    Senator Alexander. Thank you, Pastor Best. That was 2nd 
Timothy 2:15, right?
    Mr. Best. That is right. Second Timothy 2:15, that is 
right.
    Senator Dodd. I am not going to challenge that, I want you 
to know. If we had a little more time, we would have you sing 
for us right here in the committee room.
    Senator Alexander. I want you to know that we were working 
yesterday in the Senate--and I am sure that Senator Dodd is all 
for this--we were working yesterday in the Senate on an anti-
piracy bill so that when your records or your movies play, you 
get paid for it--and the scholarship fund might grow more.
    Mr. Best. Oh, great. Thank you.
    Senator Dodd. I am all for it. In fact, I have a bill--I 
have an idea on that as well that I want to share with you.
    Mr. Best. Go to work.
    Senator Alexander. Thank you for that.
    Now, Ms. Octave is from Worcester, MA--I had to learn to 
say that later in my life. Senator Kennedy is a great admirer 
of yours, and he asked me to especially say to you and to the 
hearing today that he, like Senator Dodd, is very active in the 
floor debate this afternoon, and he is caught there right now 
and will not be able to be here to give you the kind of proper 
introduction that Senator Dodd and I did for those from our 
home States--but that is not because he did not want to. So you 
are very welcomed. Thank you for coming, and maybe you could 
introduce yourself to us and tell us your story.
    Ms. Octave. Thank you, Mr. Chairman, and thank you, Senator 
Dodd, members of the panel.
    I want to thank you first of all for the opportunity to 
offer my testimony. My name, as you know, is Winifred Octave. I 
was born on the Island of St. Lucia in the West Indies. I 
emigrated to the United States in 1979, and I started working 
for Merrill Lynch and Company in New York and then in New 
Jersey.
    In 1994, I moved to Worcester, MA with my three kids, and I 
worked for a law firm as a legal secretary until the year 2000, 
when the company went out of business. At that time, I was 
faced with some big problems. I did not have a job, and at the 
same time, I was living in a condo, and the condo was up for 
sale. I was told that I had to move out.
    So I went to the unemployment office in the year 2002 and 
applied for benefits and to look for a new job. At that time, I 
was told that I did not have enough computer skills, so I asked 
them what could they offer to me, and they gave me a listing of 
schools that they could send me to. One of the schools was 
Worcester Community Action Council; there was a computer 
training program at that school.
    I did not have a car, so I made the choice to go to that 
school. At that time, I thought that was a godsend, because 
when I went to Worcester Community Action Council, a lot of 
things that I did not even know existed were right there.
    First of all, I went into the training, and they taught me 
computer skills, resume writing, and even a little bit about 
clearing your credit, budgeting--a whole lot of stuff. It 
started opening my eyes, you know, to a different world.
    I found out they had a board of directors, and I wanted to 
know about the board of directors, and they told me, so I got 
interested and wanted to become a member. I became a member of 
the board of directors, and I have been on the board of 
directors from 2000.
    I went to school for 12 weeks and learned all the computer 
skills and all of those good things that I told you. Everyone 
at Community Action Council was helpful--everyone. At the same 
time, once I was at the school, I was looking for an apartment, 
so they referred me to a lot of different agencies, and one of 
the places I was referred to was the CDC. I went to apply for 
an apartment over there, and they did not have any apartment at 
the time, and I was about to move out. So they referred me to 
Friendly House, and all they had at that time was a shelter for 
me and my kids. It was kind of hard, but that was the only 
thing they had, so at the time, I put my things in storage and 
did not have anywhere to stay. But I stayed on the board and 
kept learning everything that I could learn about it.
    Then, the CDC developed a new home, and they had a lottery, 
so I applied for the new home. I did not have any money at that 
time, but I was saving with the budgeting I learned at the 
school; I started putting a little something on the side. The 
Worcester Community Action staff helped me, and when I applied, 
I was selected to get the house.
    Now I live in a two-family house. I own my own house with 
my three kids, and I am very happy because of Worcester 
Community Action Council.
    Now I am a mouthpiece for Worcester Community Action 
Council. I go around telling people; people come to me asking 
me about the different services, because Worcester Community 
Action Council has prevented me and my children from being 
dependent on the State--that is one of the things. Right now, I 
am very happy, and when I look back, I think that it was like a 
husband that I did not have, because you need another hand, but 
they came right at the same time to help me, and I am very 
proud for all of those things.
    Senator Dodd. That is a wonderful description.
    Senator Alexander. Not all husbands are that helpful.
    Senator Dodd. I know, yes. [Laughter.] It is going to 
become a popular ``husband'' when you compare it to some of 
those out there.
    Ms. Octave. They have helped me so much and changed my 
life. At the board, since I live in the neighborhood and I know 
what the community and the neighborhood problems are, when I 
sit at the board meetings, I share and I give little solutions 
on how to maybe correct some of the problems in the community.
    One of the things that I am working on now is--I live in 
the Belmont Street area, and there is nothing for the young 
kids in my neighborhood to do, so they hang out on the 
streets--so we have invited agencies and all the neighbors in 
the community to come in and talk so we can find out some ways 
to have a youth center for the youth in the program. I am 
working very hard to get that in the area.
    I think that as a WCAC board member, I can help others like 
I have helped myself very much. Because of the services I 
received, I am self-sufficient, and I am very proud of WCAC. 
Yesterday, my daughter said, ``Mommy, do you know what? I am so 
proud of you that you are going to see Senator Kennedy and all 
those big Senators. Maybe if you did not get laid off and WCAC 
was not around, there is no way you would be going there.'' She 
is so happy for that, and she said, ``I want to become a member 
of the board of WCAC.'' She is only 13, but she sees how it has 
helped me and changed my life, so she wants to be a member.
    Another thing I am doing now--at Worcester Community 
Connections, we have different little committees, and one of 
the committees deals with DSS. I found out that they needed 
foster parents in the Worcester area, so I signed up, I 
completed an 8-week class with DSS, and I am waiting for my 
first foster child.
    I am speaking for the board of directors at WCAC, and I 
want to thank you for the support of the Community Services 
Block Grant and for making it possible for millions of families 
like myself to have a better life. And once again, thank you.
    Senator Alexander. Thank you.
    Senator Dodd. Thank you.
    Senator Alexander. Thank you very much for coming.
    Mr. Saucier, Senator Judd Gregg is the chairman of our full 
committee, and he is from New Hampshire.
    Senator Dodd. You must have spent some time up there.
    Senator Alexander. I did spend a little time. [Laughter.] I 
even know that Mr. Saucier is from Berlin; is that right?
    Mr. Saucier. Yes, and that is the correct pronunciation.
    Senator Alexander. And not many people know how to say 
Berlin.
    We welcome you. Please introduce yourself. We look forward 
to hearing what you have to say.
    Mr. Saucier. Thank you, Mr. Chairman and Senator. I just 
want to thank you for the honor of being here. I keep getting 
the feeling that any time now, I will wake up, and I will be 
back in my cubicle at work--it is like a dream to me to be 
here.
    I feel very strongly about giving my testimony about what 
impact Community Action had in my community and in my life 
personally.
    I am from northern New Hampshire, from a small community, 
and the community has always been largely dependent on one 
industry. Until a couple of years ago, everything was going 
fine. Everybody goes about their daily lives, and I was able to 
have employment in the local paper mill, bring up a family; 
everything was normal, I had two kids in college--and all of a 
sudden, the bottom just dropped right out from under us.
    The bill that I was working for filed for bankruptcy, and 
we were almost 900 people who were out of work all of a sudden. 
It happened very quickly--like 1 week you are at work, life is 
normal, and a couple of weeks later, you are all standing in 
line at the employment department, wondering what do we do 
next, what is going to happen.
    One day while I was at the employment department getting 
some counseling as to how to prepare my resume and look for 
work, I had an encounter with a person who worked for Community 
Action. There were so many people there, I had to make an 
appointment to meet with him. I was not quite sure what 
Community Action programs actually did, because I was never 
unemployed and never had anything to do with Community Action 
programs.
    I found out that no matter who you are, things can happen 
very quickly, and sometimes you find yourself being in need of 
some direction.
    When I met with this Community Action employee, he started 
asking me what plans I had for my life, what I had planned for 
my future, what direction I wanted to take, and what I needed, 
my immediate needs and my future needs, because he was telling 
me that they had programs in place to help people who were in 
need.
    It is hard to explain what it is like to all of a sudden be 
in a place where you need some public assistance, but it could 
happen to anyone. I am here to testify to that.
    Community Action helped me to figure out what I want to do 
with my future, that I still did have a future, and that I was 
not stuck or going downhill. They helped me get training, which 
I needed to make myself more marketable in the job market. I 
went to school for pretty close to a year and learned a new 
career and new skills, and they also helped me to--they worked 
with employers in the area as a liaison type to find us 
employment after we were trained.
    I am just one of hundreds of people in that little area 
that has benefited from Community Action programs, and as I 
experienced what I did, as we were all going through the same 
experience, I can tell you that some of these programs 
prevented us from losing hope; it helped get us through; it 
gave us some direction--because you feel very vulnerable in a 
place like that.
    So I am very thankful for this program. I have seen the 
good that it can do in my community, and I am just very 
thankful.
    [The prepared statement of Mr. Saucier may be found in 
additional material.]
    Senator Alexander. Thank you very much, Mr. Saucier for 
being here.
    This has been a terrific set of comments this afternoon. I 
think we are coming toward the close of what we want to do. I 
have one question that I would like to ask, and Senator Dodd 
may have one or more, and then we will wrap up. You have been 
very patient with your time.
    If you have anything else you would like us to know or that 
you want to say, if you can get it in right away in writing, we 
would be glad to have it. Let me ask one question if I may.
    Mr. Bradley, I would like to hear you say something about 
simplifying the eligibility process for low-income families. We 
have lots of programs. I know that CSBG helps coordinate all 
these programs, but maybe there is something that we in the 
Congress could do to look over this wide array of programs--for 
example, I mentioned the 69 programs that we have counted that 
help children prenatal to K through 8--and simplify the 
eligibility programs so that customers of those programs could 
make more sense out of them and find them easier to use.
    Mr. Bradley. Yes, I would be happy to comment on that. That 
is part of our legislative recommendations. Currently, the 
Community Services Block Grant eligibility requirement is 125 
percent, and what makes sense for us is that if you could allow 
the States at their option to make CSBG-funded services 
participants in any of the 40 or more categorical programs that 
the CAPs operate, if you could allow the Governors the 
discretion of lifting the CSBG eligibility requirements, it 
would go a long way in what Senator Dodd has talked about for 
years in terms of a seamless delivery system. You will have 
some that will be 185 percent, let us say in WIC or something 
like that; Head Start is--what is Head Start----
    Senator Dodd. One hundred percent.
    Mr. Bradley [continuing]. One hundred percent. But if you 
just allowed for our one program the Governor the option of 
lifting CSBG, I think it would go a long way in addressing the 
needs of the families in other programs who come to that 
community action agency.
    So I do not think it would result in other committee 
jurisdiction and would go a long way in improving lives of low-
income families, and that would actually make the Community 
Services Block Grant even more effective. So it is something 
that we strongly agree with.
    Senator Alexander. Senator Dodd.
    Senator Dodd. That is a good point. First of all, David, 
thank you immensely. This is one of my great heroes, this guy; 
this program exists because of this man and a variety of 
others.
    Mr. Bradley. And this man.
    Senator Dodd. Well, I know, but you are the genius that 
came up with this idea, and that is a terrific idea, because we 
have often talked about it. People talk about the Head Start 
family, the WIC family--they are usually all the same family in 
many cases. They are not in pigeonholes. So by allowing 
Governors the flexibility to set those standard,s you can begin 
to deal with the whole problem. The family that has a WIC 
problem has a Head Start problem, and so forth. Instead of 
jumping them around like that, it makes a lot more sense. So I 
am very supportive of that notion and I am confident the 
chairman will take a look at it as well.
    I would like to know two quick things, David. One, how 
could we improve both Federal and State performance monitoring 
of these funds in providing technical assistance? This is the 
question that obviously we are going to get, and particularly 
as we run these large deficits, the ability to fund as much as 
we might like, and it is going to be very, very important that 
we get as high a performance level as we can. I wonder if you 
had any thoughts on that.
    And second, just to confirm, because just for the record--
and I think I know the answer to this, but I would like you to 
confirm it for me--the administrative costs under CSBG are 
really very good. I think it is around 7 to 12 percent is the 
administrative cost, which is much better than we get out of a 
lot of agency levels in terms of so much of that money being 
absorbed in administrative costs. Here, you have been very 
effective in keeping those costs down, and I wonder if you 
might address those two points.
    Mr. Bradley. In terms of the second point first, you are 
absolutely right. The total administrative cost of an agency is 
between 7, 8, up to 15, 16 percent. In 1995 and 1996, there was 
pretty heavy debate in Congress about the role of government, 
and a lot of programs were on the chopping block, including the 
Community Services Block Grant.
    So we rolled the dice and had a meeting with Speaker 
Gingrich on March 6, 1996 to talk to him about the Great 
Society and the centerpiece of the War on Poverty, this thing 
called community action. A number of Republican Members went in 
on that meeting. I knew these Members, and I had researched 
what their administrative cost was for community action 
agencies, but I wouldn't ask Phil McKain, for instance, for his 
administrative cost--he might tell me 7 percent--but I would 
ask the State. I would say you tell me what the State says 
their administrative cost is.
    So I was able to tell Speaker Gingrich: Your State tells me 
the average administrative cost is such-and-such. And they 
believed the State. On that experience, I did not find a State 
anywhere in the country where the average community action 
agency's administrative cost was over 15 percent.
    Senator Dodd. That is great.
    Mr. Bradley. Second, in terms of your first point, I think 
we need three types of amendments to CSBG. One is amendments to 
clarify and strengthen the purpose, similar to what Donald 
Rumsfeld talked about--the local, family, individuals, 
partnerships, local community. That is very important. Second, 
I am all for excellence in all levels of this, and there are 
specific things that we can do to make the State and the 
Federal partners more responsive to ensure that money goes out 
on time, to advance money rather than reimbursement, which is 
just critical to the program; to ensure that State plans and 
audits are actually read; to ensure that money is being spent 
the way it should; and then, finally--and Senator Dodd, you 
have been involved in this program for a long time, and you 
have really invested a lot of leadership in this program--in 
1998, we redid the training and technical assistance category 
in CSBG. It is about $11 million--$11 million, that is it--and 
Senator Dodd and others on the committee were very, very 
helpful in that. I think we have got to fine-tune that, because 
if a community action agency is in trouble--and some are; it is 
not a perfect system--but what I am finding out now is that it 
is easy to avoid dealing with fixing the problems. It may be 
easier to say that they are not performing, and let us close 
them down. But if there is any criminality, if it is a 
fundamental management problem, or something like that, that 
institution is worth fighting to save. And I think we have to 
make our Federal and State partners more willing to put in 
resources to help turn that agency around.
    One final quick story. Lee Hamilton called me in 1996, 
former Congressman Hamilton, and he said, ``Bradley, I heard 
you are the guy I have got to talk to on Community Action. My 
agency is $1.4 million in debt. I need you to help me save the 
agency.''
    So I went out there and spent a couple hours with him. It 
was not $1.4 million in debt; it was $2.4 million in debt, and 
it was messed up. It was messed up not because of criminality 
but because they never cut back when other funding was cut 
back, and they continued to do in the community.
    We spent 14 months putting in resources at our initiation, 
and it is an absolutely stellar community action agency. We 
have done this around the country. We need help on refocusing 
our training and technical assistance dollars to meet the 
strengthening requirements in this program.
    Senator Alexander. Those are good suggestions.
    Senator Dodd. Finally, let me just say to Mr. McKain, but 
also to the three of you who have come here, I am so impressed, 
first of all that you are willing to be here. And let me 
specifically, if I can, Pastor Best, address my remarks to Ms. 
Octave and to you, Mr. Saucier. It is not easy to come before a 
public forum and talk about the difficulties in one's life, and 
I want you to know how deeply proud I am of both of you that 
you are willing to come to a public forum to talk about what 
you went through--because you are certainly not alone in this, 
as you point out, Mr. Saucier, and you, Ms. Octave. You 
represent literally thousands and thousands of people who have 
been, who are, or who will be in similar circumstances, and you 
become a source of inspiration for them.
    I do not know how many will hear what you have had to say 
today, but to those out there who wonder if there is any hope, 
who wonder if it makes any difference at all, is worth trying 
or reaching out to people, you have probably saved a lot of 
lives just by being here and just by sharing your stories.
    So I thank you immensely for coming and sharing your 
observations, not just about an agency or a government program, 
but about what can happen. As you, Mr. Saucier, said so 
eloquently, this can happen to anybody, and in fact, it usually 
does. It is not if you get in trouble, but when you do, and 
everybody does. So the fact that you have been willing to come 
to a Senate hearing and to share what happened to you in your 
life through no fault of your own, and how much a well-run 
program can make a different in your live is really eloquent.
    And you, Ms. Octave, are an inspiration. Did I hear you say 
you are going to become a foster parent?
    Ms. Octave. Yes, I am.
    Senator Dodd. That is one lucky child. I do not know who 
you are going to have as a child, but they are very lucky.
    Ms. Octave. I forgot to tell you one thing. I have a 21-
year-old son, and I have to mention him. He served 2 months in 
Iraq, and now he is in Okinawa, Japan. So I wanted to let you 
all know.
    Senator Dodd. Thank him very much for us as well.
    Senator Alexander. I am glad you told us.
    Senator Dodd. Mr. Chairman, thank you; good hearing.
    Senator Alexander. Thank you, Senator Dodd.
    Thanks to each of you for coming. It is time for us to go 
vote, I am informed.
    Senator Dodd. Yes.
    Senator Alexander. So the committee hearing is adjourned.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                   Prepared Statement of Wade F. Horn
    Mr. Chairman and Members of the Committee, I appreciate the 
opportunity to testify before you today on the President's plan to 
reauthorize the Community Services Block Grant (CSBG) Act programs. 
Community Services programs help individuals and families attain and 
retain self-sufficiency. They provide flexibility to meet the unique 
needs of individual communities and work in concert with other programs 
and multiple funding streams emphasizing Federal, State, and local 
public and private partnerships.
    The Administration strongly supports the concept of community-based 
solutions to issues related to individuals in poverty and 
reauthorization of the CSBG Act. Our reauthorization proposal includes 
important recommendations the Administration believes will 
significantly improve the delivery of service under the Community 
Services authority within the existing community-based framework.
    Before I discuss the details of our reauthorization proposal, I 
would like to briefly describe the programs currently funded under the 
Community Services Block Grant Act.

                               BACKGROUND

    CSBG is designed to alleviate poverty by funding initiatives that 
fight its causes, especially unemployment, inadequate housing, and lack 
of education opportunity. Services are administered in localities 
across the country primarily by entities called Community Action 
Agencies or CAAs, in coordination with other neighborhood-based 
entities. A network of 1,100 Community Action Agencies delivers a broad 
array of programs and services tailored to low-income Americans in each 
community.
    The CSBG program is uniquely designed to foster integrated problem 
solving. To focus and concentrate resources on those areas where action 
is most critical, CAAs conduct community needs assessments. The 
assessments direct how local agencies mobilize and allocate resources 
to plan, develop and integrate programs to meet community needs.
    Along with the block grant, the CSBG Act provides the Secretary 
with discretionary authority to use up to nine percent of the Community 
Services Block Grant funds to support employment or community 
development activities. We have used this authority to support funding 
for the Urban and Rural Community Economic Development program (URCED) 
and the Rural Community Facilities program (RCF).
    The URCED funds competitive grants to locally-initiated, private, 
non-profit community organizations called Community Development 
Corporations, or CDCs, for projects that create employment, training 
and business opportunities for low-income residents. This program 
allows for a multifaceted approach to addressing poverty in communities 
through projects that support individual and commercial development in 
economically distressed communities.
    The Rural Community Facilities program provides grant assistance to 
State and local government agencies, and private, non-profit entities 
to help low-income communities develop affordable, safe water, and 
waste water treatment facilities. Activities supported by this grant 
facilitate the development and management of water and utility 
facilities in rural areas.
    The CSBG Act provides additional funding for two other 
discretionary programs--the Community Food and Nutrition Program (CFN) 
and the National Youth Sports Program (NYSP). The Community Food and 
Nutrition Program provides funding to States, tribes and territories, 
and public and private non-profit agencies to administer community-
based, statewide, and national programs that identify, coordinate and 
disseminate food and nutrition resources. The National Youth Sports 
Program provides physical and educational development for low-income 
youth in communities across the nation. Funding under this authority 
has been awarded to the National Collegiate Athletic Association (NCAA) 
since the program's inception in 1968. NCAA operates this grant through 
its collegiate network to serve approximately 80,000 youth, ages 10 
through 16, at 200 colleges in 46 States.
    In fiscal year 2003, $704.2 million was appropriated for Community 
Services Act Programs. The preponderance of these funds ($645.8 
million) were provided for the block grant; $27 million for Community 
Economic Development; $7.2 million for Rural Community Facilities, 
$16.9 million for National Youth Sports; and, $7.3 million for 
Community Food and Nutrition.
    I would like to turn to our proposal for addressing reauthorization 
of the programs supported by these funds.

                            REAUTHORIZATION

    The cornerstone of our reauthorization proposal is to strengthen 
accountability of CSBG to ensure that this significant source of 
support for low-income families and communities is being administered 
as effectively as possible.
    Community Action Agencies provide services in 96 percent of the 
counties in the nation and have nearly four decades of experience in 
addressing the problems of low-income individuals and families. They 
were designated to provide an array of social services to communities 
through direct Federal-to-local funding in the original War on Poverty 
legislation of 1964, the Economic Opportunity Act. More recently, the 
CSBG redirected Federal funding for these programs through the State 
human services agencies for administrative oversight and technical 
assistance. After administrative expenses, the States pass no less than 
90 percent of the Federal grant to the local CAAs, many of which remain 
unchanged since 1964. Annual awards are not open to competition.
    In very rare occurrences, States have designated CAAs as deficient 
and terminated funding to the entity, but such cases have occurred 
infrequently. The current law does not provide a consistent means to 
require minimum standards of performance by CAAs in order to receive 
funding. As a result, the authority for the same local agencies to 
provide services and continue to receive funding in these impoverished 
communities has essentially been unchallenged, and subject to very 
little monitoring and evaluation.
    We believe that the lack of competition in given communities has 
led in some cases to a static environment which could be stimulated by 
bringing new organizations as a part of this network. To address this 
concern, the President's 2004 reauthorization proposal calls for the 
development of, and adherence to national outcome measures for agencies 
funded under the CSBG, and the design of a means to review, monitor, 
and remove local organizations that are not providing adequate services 
to the community.
    This builds on the 1998 reauthorization of CSBG which provided 
requirements aimed at strengthening accountability. The 1998 
reauthorization mandated that States be accountable for performance of 
their CSBG programs through a performance measures system by fiscal 
year 2001. States could design their own system, or replicate the 
Secretary's model program, the Results Oriented Management and 
Accountability (ROMA) or an alternative system for measuring 
performance and results.
    Under the Act, Community Action Agencies were not required to 
report on an established set of national measures. It was argued then 
that because the CAAs are charged with addressing the particular anti-
poverty needs of their respective service areas, that requiring and 
applying the same measures across-the-board would be difficult to 
achieve. As a result, States allowed their Community Action Agencies 
participating in performance evaluation to identify, collect and report 
outcome information related to goals their local programs identified. 
This lack of consistency in management has not allowed for much insight 
into the performance by individual CAAs, nor has it provided a means to 
ensure a minimum standard of performance for all CAAs.
    Therefore, the reauthorization initiative for fiscal year 2004 
proposes to take the next step toward increased accountability in the 
Community Services Block Grant by streamlining the performance outcomes 
tool to require that all Community Action Agencies in the States 
participate in a uniform, results-focused system.
    We are looking to use the ROMA foundation as the basis for 
establishing the national outcome measures. Specifically, the 
Administration is collaborating with State CSBG authorities and local 
entities to identify 10-12 national performance indicators for the CSBG 
program. Most of the outcome measures being considered are those for 
which data are now being collected by a majority of the States and 
eligible entities through ROMA. As I indicated, ROMA has been a bottom-
up, mostly voluntary process over the past nine years. By building this 
system into the statute, more consistent data can be collected and 
program outcomes evaluated to ensure that CSBG is effectively serving 
at-risk individuals and communities.
    Organizations, including those historically designated as Community 
Action Agencies, that are not found to be performing at an acceptable 
level could lose their designation as a service provider for CSBG if 
acceptable corrections are not made. A State-run competition would be 
held to designate a new CAA to replace the agency that fails to meet 
acceptable standards. Faith-based organizations, as well as other non-
governmental community organizations, would be eligible to apply for 
funding under the proposed revised authority.
    Our objective is to have consistently applied outcome measures to 
ensure that all agencies administering CSBG can assess their program 
effectiveness, and are accountable for the services supported by the 
program. Once enacted, we will be better equipped to ensure that CSBG 
funding is made to local community organizations that are effective in 
achieving the purposes of the Act.
    Similar changes are proposed for the Urban and Rural Community 
Economic Development (URCED) Program. URCED grants are made on a 
competitive basis to Community Development Corporations (CDCs) for job 
creation, job training, and economic development projects. CDCs must 
have private, non-profit status as certified by the Internal Revenue 
Service. In most years, organizations that receive these funds come 
from the same group of applicants. While most activities under URCED 
have been successful, some grantees have had difficulty implementing 
their projects in their communities, which we have documented in our 
Annual Reports to Congress. The current statute does not authorize 
significant monitoring to assist those grantees experiencing 
difficulty, or a way to consider applicants for grants under this 
program that have had repeated difficulty in implementing their 
projects.
    In the fiscal year 2004 reauthorization, the Administration 
proposes to strengthen the capability of this program by increasing 
accountability and monitoring, and expanding the pool of applicants by 
re-defining entities eligible to receive funding to embrace other 
private, faith-based and community-based organizations. The 
Administration is recommending reauthorization for this program because 
we believe the premise of providing economic development to under-
developed neighborhoods and communities where low-income individuals 
live is an important element in addressing the issue of poverty. We 
believe by refocusing this program, and by casting a broader net, we 
can make this program work better for low-income communities and 
individuals.
    Finally, we are not recommending reauthorization of the remaining 
CSBG Act discretionary programs. These programs largely duplicate the 
functions of other programs or provide services that can be addressed 
as a State or community finds necessary through the flexibility 
provided under other funding mechanism like CSBG, SSBG or in some 
cases, TANF.
    For example, the Environmental Protection Agency and the Department 
of Agriculture's Rural Development programs provide services similar to 
those under the Rural Community Facilities program and USDA's Food and 
Nutrition Service (FNS) provides comprehensive support to communities 
to increase food security and reduce hunger through various programs, 
including programs similar to the CFN program.
    In summary, the proposals I've outlined for reauthorization of the 
programs under the Community Services Block Grant Act reflect the 
lessons learned over the past 40 years. The issues attendant to poverty 
have changed significantly since the 1960s. There are new interventions 
such as family strengthening initiatives and asset accumulation 
strategies. There are developments that the public sector has made in 
addressing problems facing communities, such as the creation of the 
Environmental Protection Agency to help our nation's communities more 
comprehensively address their water, wastewater and facilities issues. 
There is also a growing understanding of the importance of the private 
sector and the faith community as invaluable allies with government in 
the strategy to address the issues of poverty in the 21st Century.

                               CONCLUSION

    The Administration believes the programs authorized by the 
Community Services Block Grant Act, and the State and local community 
organizations that administer these funds, are vital to achieving the 
objective of sustainable communities and individuals. But the objective 
cannot be achieved if we maintain the status quo. This proposal puts 
forth the framework for a 21st Century model of addressing poverty that 
understands today's issues, requires uniform accountability to 
facilitate quality, supports competition to enable different ways of 
approaching the problem, and makes certain that the programs supported 
by funds under the Community Services Block Grant Act provide the 
highest quality of service.
    We look forward to working with the committee as it pursues 
reauthorization legislation for the CSBG program. I would be happy to 
answer any questions. Thank you.

                 Prepared Statement of David A. Bradley

    Mr. Chairman, Senator Dodd and Members of the Committee and 
Subcommittee, thank you for this opportunity to discuss the 
reauthorization of the Community Services Block Grant.
    At the outset, it is important to remind the Subcommittee that 
although Community Action Agencies have been identifying and meeting 
low-income community needs for almost 39 years, the Community Services 
Block Grant is just now approaching its twenty-second year.
    CSBG was created by Congress in 1981. From the beginning, it was 
seen as a program that combined the desire by a President and some in 
Congress to shift authority and responsibility for programs to the 
States while at the same time recognizing an equally strong desire by 
the Congress to maintain a funding stream to the nation's Community 
Action Agency network.
    Congress recognized that the purpose and goals of a Community 
Services Block Grant program are different than the more specific 
purposes of the services and investments authorized, for example, the 
Social Services Block Grant or the Community Development Block Grant. 
The primary goal of the CSBG Act is to maintain the capability of the 
local Community Action Agencies to plan, mobilize and coordinate 
locally appropriate approaches to reducing poverty. The States are 
required to use 90 percent of their grant for this purpose. The 
Community Action Agencies are charged with addressing several specific 
causes of poverty and with using certain strategies to do so. These 
strategies are not required by other Federal programs for their 
delivery systems: they include the integration of multiple programs and 
services, prioritizing achievement of self sufficiency, and attacking 
local, and by extension national, causes of poverty, from community 
infrastructure and poor services to the mobilization of groups of 
residents to make social changes.
    Community Action Agencies are intended to be stable, accountable, 
community-directed institutions, not projects, not single-purpose 
groups, not temporary, ad hoc organizations.
    The unique characteristics of CSBG-funded Community Action Agencies 
are worth repeating:
    1. GOVERNANCE--Community Action Agencies (CAAs) are required to 
have a tripartite governing board consisting of equal parts of private 
sector, public sector, and low-income representatives of the community 
being served. This structure brings together leaders from each of these 
sectors to collaborate on responses tailored to local needs.
    2. INNOVATIVE SOLUTIONS--CSBG funds give CAAs the flexibility to 
design programs that address needs specific to individuals and the 
local community.
    3. COMPREHENSIVE SOLUTIONS--CAAs use CSBG dollars to coordinate 
multiple programs. CAAs provide services that address the full range of 
family needs--from Head Start and family literacy, to child care and 
after-school programs, to youth and adult employment and training, to 
permanent housing and job placement, to asset building and budget 
counseling, to services for seniors and the frail elderly. Integrated 
service delivery is tailored to individual circumstances.
    By investing in the Community Services Block Grant, Congress has 
repeatedly confirmed that the unique characteristics of Community 
Action Agencies warranted continuing Federal support. It now funds more 
than 1,100 agencies to maintain the leadership and capability for 
creating, coordinating and delivering comprehensive programs and 
services to almost a quarter of all people living in poverty.
    Attached is a summary of the fiscal year 2001 funding and client 
data, showing that this is a nearly $9 billion system serving:
    <bullet> 98 percent of U.S. counties;
    <bullet> As many as 24 percent of persons in poverty; and
    <bullet> More than 13 million low-income who were members of about 
4 million families.
    <bullet> Of these, over 1.7 million were ``working poor'' families 
who relied on wages or unemployment insurance.
    It is worth noting that these data are collected by the voluntary 
Information System designed by task forces of State and CAA managers 
using the Federal support mandated first in 1990 and later reinforced 
by provisions of the 1998 Human Services Reauthorization Act. It is 
implemented and analyzed by the National Association of State Community 
Services Programs, our State counterparts, working in close 
collaboration with our local, State and national CAA associations. (The 
very detailed state-by-state full report is available at 
www.nascsp.org.)
    In these reports, you will easily discern how poverty has changed 
since the beginning of Community Action in 1964; children and their 
families are more likely to endure periods in poverty than the elderly. 
They make up the majority of CAA clients. Workers' families make up a 
far larger share of the poor, and, accordingly, CAAs' biggest single 
group of participants is now the working poor and their families. Just 
about one quarter of Americans in poverty came to a CAA in 2001. Of 
these, nearly half relied on, or had lately been relying, on wages.
    We surveyed the CAAs in preparation for this hearing. In every part 
of the country, rural or urban, they told us their biggest need was for 
more resources and tools to support low-wage workers whose incomes are 
inadequate, who have few or no benefits, and whose employment is 
insecure. They also told us the biggest single problem in their 
communities is the cost of housing.
    But does the Community Action method work in general, and do 
today's CAAs in particular, make it work? First I have to point out 
CAAs beat its GPRA targets every year since 1999; these are set by the 
Administration on Children and Families. A table showing our results is 
attached. As you look at it, you might take note that the government 
raises the target by 1 percent each year regardless of the funding 
level of the programs. Fortunately, Community Action surpassed the 
expectations even before CSBG was increased to $650 million. Many other 
programs which are not being singled out for changes or reductions 
today did not do as well, so we do question the way HHS selectively 
uses its performance measurement system.
    Mr. Chairman, Community Action is truly a work in progress. Since 
its beginning in 1964 through the creation of the Block Grant in 1981 
and up to today, every reauthorization that this Committee has worked 
on has strengthened, improved, and focused the program. In 1998, we 
requested, and Congress provided, a mandate to develop better 
accountability and modern management tools for the local agencies.
    CAAs are very proud of that new system--Results Oriented Management 
Assessment (ROMA) that CAAs are pioneering locally. This system is 
capturing the outcomes of more than 200 program combinations invested 
in more than 4 million families and their com to get together and 
create a voluntary results-oriented management assessment system. We 
call it ROMA. Not yet 4 years later, it's a work that has been 
successful beyond all expectations. Harvard University's Kennedy School 
of Government made ROMA a 2002 nominee for the prestigious innovations 
in Government Award; in August 2001 the White House office of Faith-
Based and Community Initiatives pointed out that CSBG stood almost 
alone as an HHS program with outcomes measured.
    Tracking results has had a significant management effect. CAAs are 
86 percent private non-profit organizations, and the rest are tribes 
and local government organizations. All such entities struggle with 
limited management capital and training to keep management tools and 
information systems up to date. ROMA has brought new systems and 
healthy debate about new systems.
    I have provided an outline of the steps to getting results 
measurement in place because we are proud of the process. It brought 
together in each of 50 States a total of 1,105 agencies, their State 
mangers, associations, as well as uncounted Federal officials and 
management experts to agree on ways to measure participation outcomes 
for participants of about 400 programs coordinated with each other. 
Some programs, like Head Start, have their own very extensive measures 
that are reported separately to the Head Start Bureau. Nothing like 
this has ever been tried; you need only read the material from the many 
organizations that support the ``independent sector'' or the ``third 
sector''--meaning private nonprofit organizations--to see how many 
kinds of organizations are struggling with challenges that are similar 
but involve far fewer goals and programs.
    The reason for ROMA is not really to generate reports to Congress; 
the reason is to give the program managers at the local level the 
information they need to be more effective. Soon, good national 
reporting will emerge; now you have collections of complicated State 
reports. In this short period, CAAs have picked measures, tracked many 
participants' results for one or more years, written reports, changed 
programs, changed measures, and tried again. (We are all cheering each 
other on by recalling that ``ROMA was not built in a day''.)
    The next step is to agree on a few national measures everyone will 
report on; a draft is circulating and we're having ongoing debates 
about what to include. When the measures capture the kinds of programs 
that will be described by my fellow witnesses today, we'll have a 
selection that allows Congress to see a small slice of the Community 
Action performance. It's astonishing to us that the Administration has 
suddenly proposed to federalize this undertaking, to impose measures on 
the network, and to turn this potential management tool into a punitive 
exercise instead of allowing managers to create useful information and 
feedback loops in the expectation of strengthening their work.
    This comes from an agency which has no universal standard for 
States to use for managing or auditing local funding, which has failed 
to make timely grants when requested by States themselves for local and 
State agency management support or technical assistance. Further, no 
such Federal testing is suggested for any other local network or group 
of nonprofits. If, in fact, the Congress legislated the proposal before 
you, and agencies failed the Federal test, whatever it might be, what 
other kind of private nonprofit would have also been measured and 
tested in the same way so that a ``replacement `` would be demonstrably 
better? (ROMA by the way is not about fiscal systems and performance; 
the normal independent audit practices and OMB standards govern those 
operations. At issue is the quality of program operations.)
    In short, we ask your continued confidence in the process you 
created 4\1/2\ years ago. We think the unique ROMA process is working 
and that it would be a big mistake to hand it to the Federal Agency to 
dictate measures and reports as proposed.
    In fact, our belief in the power of performance measures is so 
strong that we want Congress to insist that the management by States 
and Federal Agencies also be measured. Our proposals for the elements 
to be measured include getting funding out on time, coordinating HHS 
and State poverty reduction programs internally with CSBG programs, and 
meeting basic financial standards.
    Of course our work can be even better. We have specific 
recommendations for the Committee to consider during the 
reauthorization of CSBG. Generally they are:
    1. Amendments ensuring that the three fundamental purposes of CSBG 
are clearly stated and distinguished from public policies of 
contemporary concern to Congress.
    By this we mean that the goals of reducing poverty for individuals, 
of building community assets that reduce poverty conditions, and of 
maintaining CAA leadership that represents the communities served are 
restated for a new generation. Other important initiatives to meet this 
decade's needs, such as TANF transition and literacy enhancement, 
should be given prominence in a new category of Programs of Emphasis.
    2. Amendments ensuring that the Community Services system has 21st 
Century management and accountability systems at the Federal and State 
levels, as well as at the community level.
    By this we mean the adoption of common financial monitoring tools 
by all States so the standards applicable to private nonprofit 
recipients of Federal grants are universally understood and applied. We 
also propose that HHS be held to high standard for its' own efficiency, 
openness and oversight responsibilities regarding State management of 
the block grant.
    3. An amendment providing flexibility in determining CSBG 
eligibility so that participants in CAA programs that support low-wage 
workers' efforts to become economically self-sufficient are not 
disqualified from the programs as soon as they begin working in entry-
level jobs.
    We have attached a description of changes in each of the three 
categories. Legislative language and a more detailed explanation will 
follow.
    The deep cut the administration has proposed for fiscal year 2004 
would devastate CAAs' ability to marshal resources just as Federal 
programs contract along with the economy. When Congress provided an 
increase in CSBG appropriations, the CAAs raised proportionately more 
non-Federal resources. We have attached a table comparing the 
leveraging power of CSBG before and after the increase, by showing the 
size of all types of funding, other than Federal grants, as a 
multiplier for the CSBG funds in each year. It shows CSBG increases had 
a disproportionate leveraging effect, in that the rate of growth in 
non-Federal funds, not just the level, increased as CSBG funded 
significant resource mobilization activities. Further, it shows that 
each CSBG dollar leveraged more State, local and private funding in 
fiscal year 2001 than 5 years earlier.
    The elimination of the Community Food and Nutrition and Rural 
Facilities Programs are also surprising; no other programs perform the 
same functions nor are funds expected to be increased in the 
Departments named in the Assistant Secretary's testimony. We will be 
providing the Committee with additional information on these programs 
that are critically important to our network.
    We are grateful once again that a strong bipartisan majority of 
this Committee and the Congress appear ready to reauthorize these two 
critical programs. We look forward to working with you to achieve this 
result.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                  Prepared Statement of Phillip McKain

    Good afternoon, my name is Phillip McKain. I am the President and 
CEO of CTE, The Community Action Agency for the Communities of 
Stamford, Greenwich and Darien, Connecticut. I am also the President of 
the Connecticut Association for Community Action, the State association 
for the 12 Community Action Agencies of Connecticut. These 12 agencies 
serve all 169 towns and cities in the State.
    For 2002, our agencies reported serving over 254,000 clients. Our 
clients include young children, the disabled, the elderly and poor and 
working poor individuals. Of those for whom information was available, 
the following outcomes were reported:
    <bullet> 90 percent of families demonstrated an increase in skills 
and were strengthened through counseling, classes and other support 
services.
    <bullet> 88 percent reduced or eliminated an emergency need, such 
as food, shelter, or home heating utility payments.
    <bullet> 69 percent eliminated or reduced barriers to employment 
and self-sufficiency.
    <bullet> 14,924 children and youth participated in services that 
supported their growth and development, such as Head Start, school 
readiness, and at-risk youth programs.
    In particular, new asset-development strategies are helping low-
income working people stay off of welfare and move toward self-
sufficiency:
    <bullet> 62 percent demonstrated an increased ability to manage 
income to achieve self-sufficiency through various financial literacy 
programs.
    <bullet> 55 percent increased their earned income from the previous 
year.
    <bullet> 11 CAAs operate Individual Development Account programs. 
This long-term program will eventually help 230 clients purchase their 
first home, attend college or capitalize a small business.
    Beyond these examples of the impact CSBG funding has made on the 
lives of individuals and families, I am also here today to testify on 
the value of CSBG in Connecticut in bringing about change in State 
Government and in local communities to address the needs of working 
low-income families and communities.
    On the State level the 12 CSBG funded Community Action Agencies 
have partnered with the Connecticut Department of Social Services and 
Infoline, a United Way funded statewide information and referral 
system, to change the social service delivery system for DSS Human 
Services Infrastructure. For years Connecticut State Government's 
social services system was fragmented, creating confusion and 
duplication for Connecticut low-income families. In an effort to change 
this system, the CAAs met with the Commissioner of Social Services for 
the State and the Governor's Office of Policy and Management. We 
proposed a new service delivery system to create an automated ``one 
stop'' approach to human service delivery which will streamline and 
integrate intake and assessment procedure, State and Federal program 
eligibility screening, information and referral, and client outcome 
measurements for Connecticut's low-income residents. ``Connecticut CAA 
Self-Sufficiency Centers'' will build upon our existing Results 
Oriented Management and Accountability (ROMA) system and software being 
implemented through the State association.
    In a letter dated June 30, 2003 to Connecticut's Senator Dodd 
regarding this innovative partnership and the value of CSBG, the 
Commissioner of Connecticut's Department of Social Services, Patricia 
Wilson-Coker, stated that, ``this management innovation is so 
impressive that I am using the Connecticut Community Action Network and 
the ROMA model as a new paradigm to support Connecticut's Human Service 
Infrastructure.'' I am submitting the Commissioner's letter for 
inclusion in the Committee's record. As a prelude to this new system, 
the DSS recently turned to the Community Action Network to provide 
assistance to disabled clients who needed help in completing DSS 
applications and locating needed services. This would not have been 
possible without the core funding that CSBG provides.
    The Self-Sufficiency One Stop is not a program. It is not a 
``silo.'' It is a ``funnel'' that will guide clients through the 
complex service system and be a more effective approach to providing 
service. It will ensure the most cost-effective use of taxpayer dollars 
and provide better customer service. Additionally, Self-Sufficiency 
Centers will:
    <bullet> Create a more cost-efficient service delivery system and 
eliminate duplicative efforts in intake, referrals, and assessment.
    <bullet> Provide low-income people a ``one-stop'' system of 
comprehensive intake and assessment services that will improve client 
outcomes, and
    <bullet> Provide better client outcome data reports that cuts 
across State and federally funded programs and demonstrate the value of 
integrating diverse funding streams at the local level.
    The Connecticut Community Action network has utilized CSBG funding 
to provide leadership in identifying and solving needs that improve the 
life chances of low-income working families.
    <bullet> In Stamford, a high cost-of-living, affluent community 
with pockets of extreme poverty, the Community Action Agency was asked 
to form an Affordable Housing Collaborative to help put affordable 
housing on the policy-making agenda for the city. We mobilized business 
leaders, labor representatives, faith leaders, non-profit and private 
housing developers, public officials, and community advocates, to put 
housing on the agenda of the city government. At our prompting, the 
Mayor established a Task Force which recommended zoning regulation 
changes to facilitate the production of affordable housing. Stamford 
now has incentives and regulations that will produce affordable units 
for low- to moderate-income workers who are the lifeblood of a 
sustainable community.
    <bullet> The Community Renewal Team leveraged private and public 
donors to create a Homeowner Assistance Center in Hartford. This center 
provides holistic services to help low-income working people purchase 
and rehabilitate houses, enhance their financial literacy skills, and 
improve their likelihood of long-term ownership, thereby stabilizing 
neighborhoods.
    <bullet> The Human Resources Agency of New Britain's supports the 
East Side Community Action neighborhood group. This association has 
organized community residents to form five block watches; petitioned 
the city to remove blighted buildings; organized ongoing meetings with 
city officials to improve neighborhoods through crime reduction and the 
availability of services such as grocery stores; and successfully 
worked with the New Britain Common Council to pass a resolution 
establishing the East Side as a Neighborhood Revitalization Zone (NRZ).
    <bullet> The Bristol Community Organization uses CSBG funds to 
provide comprehensive services for elderly clients, including 
transportation, that keeps them living independently and out of 
expensive nursing homes.
    These are but a sampling of the many economic development and 
community improvement efforts going on in Connecticut through the work 
of Community Action Agencies and CSBG funding.
    The State of Connecticut turned to CAAs because we had a system 
supported by a flexible and non-categorical funding base that can 
respond to statewide issues. Local communities turn to CAAs because we 
have the history of trust, commitment to the poor, and community 
partnership to bring about community change. Individuals and families 
turn to CAAs because they know that they can get a hand up to improve 
and change their life chances. The Community Services Block grant is 
that one unique Federal funding mechanism that has made these changes 
happen.
    I urge your continued support and the reauthorization of the 
Community Service Block Grant. Thank you for allowing me to speak to 
you today.
              APPENDIX IX TO E. PHILLIP MCKAIN'S TESTIMONY

Innovative Strategies to Support People Moving Toward Self-Sufficiency

    <bullet> Individual Development Accounts: Eleven CT CAAs operate 
IDA programs. The Federal IDA program provides no funds for case 
management, yet because of CSBG, our agencies can integrate IDA 
services into our existing case management structure. This long-term 
program will help 230 clients purchase their first home, attend college 
or capitalize a small business. To date, eight (8) have used their 
savings towards post-secondary education, eight (8) towards small 
businesses capitalization, and twelve (12) towards home ownership.
    <bullet> Support for Low-Income Working People: Our agencies are 
adding programs and supports to help people manage their income better, 
to reduce debt, repair credit and save money.
    <bullet> 1,834 of 2,954 clients or 62 percent Demonstrated 
Increased Ability to Manage Income to Achieve Self-Sufficiency through 
various financial literacy programs.
    <bullet> Four agencies operated Volunteer Income Tax Assistance 
Centers that helped low-income working families and individuals file 
their taxes and apply for Earned Income and Child Tax Credits. Over $1 
million in refunds were provided through these efforts.
    <bullet> Non-Custodial Fathers: A number of our agencies provide 
support to help non-custodial fathers get back on their feet, 
reintegrate with their families and begin providing child support. A 
program at Action for Bridgeport Community Development, works with a 
sheet-metal union to provide job training and better employment 
opportunities. By increasing income fathers are better able to pay 
child support and maintain relationships with their children. They also 
receive assistance on resolving legal issues, parenting skills and 
establishing relationships with their children.

Strategies That Are Improving Low-Income Communities and Supporting 
                    Economic Development

    <bullet> Community Renewal Team: CRT developed the Homeownership 
Assistance Center with private and public dollars. The Center 
establishes a one-stop housing resource center that will provide a 
comprehensive set of homeowner services to low- and moderate-income 
households. The program joins homeownership, weatherization, and energy 
efficiency services to Hartford families and individuals. It emphasizes 
asset building by encouraging low- and moderate-income households to 
purchase new homes or rehabilitate currently owned ones, and also 
provides financial literacy counseling, mortgage application 
assistance, home improvement assistance, assistance with dealing with 
contractors, post-improvement audits, social service intakes to 
determine eligibility for other social service programs. In addition to 
funding from the Ford Foundation, CRT has established partnerships with 
Fannie Mae, Northeast Utilities, the Housing Education Resource Center, 
the City of Hartford, and the Connecticut Housing Finance Association. 
This collaborative approach allows the Center to provide numerous 
services to its clients that CRT is unable to provide on its own.
    <bullet> New Opportunities in Waterbury uses CSBG funds to support 
five neighborhood centers, a transitional housing program, and three 
youth centers. The Neighborhood Youth Center in the Brooklyn 
Neighborhood of Waterbury provides activities (educational and 
recreational) and family support (case management) to at-risk youth. By 
engaging youth in after-school hours and during school breaks, the 
program hopes to minimize their exposure to crime and drug related 
influences.
    <bullet> Human Resources Agency of New Britain uses CSBG funds to 
provide coordinated, comprehensive services, maintain over 35 community 
partnerships, and leverage funding for community improvement efforts. 
One such partnership is with East Side Community Action, a neighborhood 
group of East Side residents of New Britain. Over 3000 East Side 
families were contacted and they identified a range of problems to 
address: Housing, Public Safety and Economic Development. The 
committees are working on reducing or eliminating many problems 
including blighted housing, crime, and the absence of a grocery store 
on the East Side. Some of East Side Community Action's accomplishments 
are:
    <bullet> Public Safety Committee members have formed five Block 
Watches and a task force investigating the proposed Power Plant.
    <bullet> The Housing Committee has sent letters to the owners of 
blighted housing and is following up with phone calls.
    <bullet> City employees from various departments have attended 
committee meetings to talk with residents and answer their questions on 
a number of topics. As a result, East Side residents readily call the 
city to address problems in their neighborhoods such as drug dealing, 
speeding cars, the need for stop signs, problems with trash removal, 
and blighted housing.
    <bullet> In April 2002, the New Britain Common Council passed a 
resolution establishing the East Side as a Neighborhood Revitalization 
Zone (NRZ).
    <bullet> The Bristol Community Organization uses CSBG funds to 
provide comprehensive services for elderly clients, including 
transportation, that keeps them living independently and out of 
expensive nursing homes.

                 Prepared Statement of Michael Saucier

    I was employed by the local paper mill for 28 years, and for 23 of 
those years, operated a sheet metal shop.
    When it became apparent that the rumors were true, and the mill was 
going to close, I was in a dilemma, not knowing where I could turn to. 
I had never been unemployed in my life!
    I then went to the NH Works Office for employment counseling and 
sat down with Paul Lozier; who works for Tri-County Community Action's 
Workforce Investment Program. Paul conducted a general testing of my 
abilities and advised me that there were programs in the works, i.e., 
training programs with instructors and employment programs with local 
businesses. He said that if I were interested, he would sign me up at 
no cost to myself.
    In the meantime, I started looking for employment had several 
interviews in northern Massachusetts, etc. During this time, my wife 
and I discussed the situation and decided that we were not prepared to 
make ;such a drastic move as we had two children attending New 
Hampshire colleges and we both had extended family in Berlin.
    I worked with Tri-County CAP to determine the training that would 
provide skills that matched my aptitude, interests and local employment 
opportunities. I responded positively and been training at a local 
college and enrolled in a computer-aided drafting course, which led to 
my current, full-time employment as a professional with Isaacson's 
Structural Steel, Inc.
    Isaacson's Structural Steel: worked with Tri-County CAP from the 
beginning of the crisis to develop positions and training that would 
benefit laid-off workers, their local businesses and the community as a 
whole. Tri-County CAP and Isaacson's are remarkable partners and I was 
happy to work with both of them.

                 Prepared Statement of Winifred Octave

    Mr. Chairman and Members of the Committee. Thank you very much for 
giving me the opportunity to appear before you today.
    My name is Winifred Octave. I was born in St. Lucia, West Indies 
and immigrated to the United States permanently in 1979. I've been a 
U.S. citizen for more than 10 years. I worked for Merrill Lynch in New 
York for 15 years as a Settlement Specialist before moving to Worcester 
Massachusetts in 1994. I worked as a legal secretary for a Worcester 
law firm until they went out of business in 2000, and I was laid off.
    I am a single parent with three children. My 21-year-old son served 
for two months in Iraq and is now in Japan, on his way to the 
Philippines. I have a 13-year-old daughter and an 8-year-old son.
    When the law firm laid me off in 2000 I went to the unemployment 
office to apply for benefits and to find out what was available. Since 
I didn't have good computer skills, I knew I needed more training. One 
of the places that was suggested to me was the Worcester Community 
Action Council. Since I didn't have a car, and WCAC was easy to get to, 
I picked WCAC. I honestly believe God helped me make that choice.
    I went to ``school'' at WCAC for 12 weeks. I learned new computer 
skills. I got to practice interviewing for a job with people who came 
from companies in Worcester. I learned to write a resume. I also 
learned about credit and budgeting and other useful information from 
the teachers and other WCAC staff. Everyone was very helpful. After I 
finished the course, I received help in getting a job. I've been with 
this employer since I left the class in 2000.
    WCAC helped me in many other ways. I qualified for fuel assistance. 
I joined Worcester Community Connections, a parent empowerment program 
that is housed at WCAC. Because I got involved in Community 
Connections, I learned about home ownership opportunities for families 
like mine. I applied to a community development corporation (with help 
from WCAC staff) and I was selected to buy a two family home where I 
now live with my children. The house has been weatherized by WCAC. 
Also, I learned about the need for foster parents in our community. So 
I signed up with the Department of Social Services to become a foster 
parent. I attended 8 weeks of classes and learned First Aid and other 
important skills. I'm now waiting for my first foster child.
    When I was still in the training program, I heard about the WCAC 
board of directors and how to become a member. I wanted to do that. 
Since 2001, I have been a representative of the low-income sector and I 
report to the board on what is happening in my neighborhood and with 
Community Connections. I've learned a lot about Worcester since joining 
the board and also the towns where WCAC provides services. I learn 
about programs and funding and we talk about issues that affect the 
agency and low income working families like mine. Many of the board 
members are business people and elected officials (or their 
representatives). Those board members want to help people but they 
don't know what it's like to go through problems in the community. I do 
and so do the other low-income representatives on the board. We live in 
the neighborhoods and know what kinds of problems people like us are 
having. At board meetings I can talk about what the needs are. For 
example, I've talked about the kids in my neighborhood who have nothing 
to do. So some of the neighbors and agencies are meeting to try and 
start a youth center in our neighborhood. Talking about this at board 
meetings is a way to keep other people informed about what is going on.
    I tell everybody about WCAC. I have sent so many people to the WCAC 
office for services. I want to help ``give people a better life.'' I 
think by volunteering and by being a WCAC Board member, I can help 
others like I was helped. Because of the services I received at WCAC, I 
am self-sufficient. That makes me feel very proud. And my daughter is 
so proud that I am able to be here today with all of you.
    Speaking for the WCAC Board of Directors and staff, I want to thank 
you for your support of the Community Services Block Grant (CSBG) and 
for making it possible for millions of families like mine to have a 
better life.

                  Prepared Statement of Patsy C. Lewis

    It is an honor to offer testimony on behalf of the re-authorization 
of the Community Services Block Grant (CSBG). We appreciate this 
opportunity to provide information on how CSBG assists thousands of 
families in our community and by sharing our experience, represent the 
importance of CSBG funding to community action agencies across the 
country.
    Worcester, the second largest city in Massachusetts, has changed 
over the past fifty years from an industrial city to one known more for 
educational institutions, services and health care. Worcester has 
strong neighborhoods, with active resident groups in all parts of the 
city. The economy was strong in the 1990's, but problems continued for 
low-income neighborhoods and residents. This has been particularly true 
for those with limited education, limited English language skills, and 
limited work histories. Now, unemployment is rising, affordable housing 
is difficult to locate and there are fewer opportunities for upward 
mobility. The Worcester Community Action Council, in partnership with 
the public and private sector, continues to find those opportunities.

                               GOVERNANCE

    Incorporated in 1965, the mission of the Worcester Community Action 
Council, Inc. is ``to stimulate change in the fundamental causes of 
poverty and to create and provide opportunities for economic self-
sufficiency through services, partnerships and advocacy.''
    WCAC has a 21 member Board of Directors with seven members from 
each of sectors: public, private and low-income. The board currently 
includes representatives of utility companies, professional services 
(finance and legal), elected officials (or their designees) and 
representatives of low-income neighborhoods and organizations. The 
board meets bi-monthly and reviews the program and financial reports, 
hears neighborhood concerns and news and discusses important issues. In 
2002, the board developed a three year Strategic Plan that emphasizes 
economic self-sufficiency and set measurable goals in the areas of: 
affordable housing; increasing youth and adult education services; 
encouraging the development of healthy children and families; and 
finally, increasing our own capacity as an organization to deliver 
these high quality services and programs.
    The Worcester Community Action Council offers 20 programs and 
services around three themes: Education, Family Support and Energy. 
Community Services Block Grant is the ``franchise,'' the funds that 
make all of our work possible. Every dollar from CSBG leverages 
approximately $20 in other grants and contributions that are used to 
serve more than 11,000 households in Central and Southern Worcester 
County.

                         PROGRAMS AND SERVICES

    The main office of the Worcester Community Action Council is 
located in downtown Worcester, MA, across from the Worcester City Hall. 
The office area is a central location for several of our major programs 
including Fuel Assistance, Weatherization, Youth Education (GED, high 
school student support, Americorps/Cityworks, the Computer Technology 
Center/ComputeRise, ESOL, The Community Mediation Center, The Consumer 
Council of Worcester County and Worcester Community Connections. Other 
programs, including Head Start/Early Head Start and Healthy Families 
are located at various sites throughout Southern Worcester County. We 
have more than 130 full time employees who work for these and other 
services. Several of our employees are ``graduates'' of our own 
education and training programs.

                                FUNDING

    WCAC has a diversified funding base, with approximately 90% of the 
2002-03 revenue of $12 million originating with federal sources. 
Another 5% comes from state funds and the remaining 5% reflects United 
Way, corporate and foundation support.
    Community Services Block Grant (CSBG) is the ``core'' funding for 
WCAC and our most important source of support. CSBG is used to leverage 
other public and private funds ($20 for each $1 from CSBG), ``pilot'' 
new programs, support important services that are not funded (or are 
under-funded) and support community services beyond the Worcester 
Community Action Council. Here are some examples:
    Three years ago WCAC piloted a 12 week Energy Auditors' Training 
program to prepare low-income and unemployed residents for positions in 
utility companies and/or energy conservation programs. CSBG was the 
funding source for developing the curriculum and supporting staff. Of 
our first class of four, three graduates immediately found employment 
in energy related fields. Two months ago one of the graduates of our 
second class responded to our ad for an auditor. She just started to 
work for WCAC as an Energy Auditor and she will be an excellent 
addition to the staff and the Energy field. CSBG made her employment 
possible.
    In collaboration with four other Massachusetts Community Action 
agencies, WCAC received a grant from the Office of Community Services 
to start an Individual Development Account (IDA) project to assist 25 
low-income families save toward home ownership. The coordinator for the 
project is paid from CSBG and the money raised from federal and private 
sources goes toward the matched savings accounts.
    United Way of Central Massachusetts provides limited support for a 
very successful, open entry, open exit GED preparation program, Project 
Excel. Thirty-five to 40 young adults participate every year in 
academic classes, workshops and computer training. The United Way 
support has gradually decreased in recent years, but because of the 
importance of this program (and the outcomes), CSBG is used to keep the 
support at an adequate level.
    WCAC does not use the entire CSBG allocation for ``in-house'' 
programs. We provide CSBG funds to the Main South Community Development 
Corporation and the South Worcester Neighborhood Center to provide 
housing opportunities for low-income families, We provide CSBG funds to 
the Worcester County Food Bank to support food distribution to families 
in need.
    For several years WCAC operated Customer Service/Computer Training 
program for low income and unemployed residents. The program, funded 
initially by JTPA and then WIA combined classroom instruction with 
internships in local companies, life skills workshops and job search 
activities. The program received national attention. One of the private 
sector companies we worked with, National Grid/Massachusetts Electric, 
was selected as one of the country's 100 best employers for their 
Welfare to Work employment record. Public funding gradually decreased 
and WCAC kept the program going until 2001 with CSBG support. There are 
hundreds of former welfare recipients now working in Central 
Massachusetts because of this particular program. And because of CSBG.
    Other federal funding for WCAC originates with LIHEAP, the Dept. of 
Energy/Weatherization Assistance Program, Head Start/Early Head Start, 
Americorps, and the Dept. of Education. State funding includes: The 
Massachusetts Office of the Attorney General, Children's Trust Fund, 
Local funders include: the City of Worcester, the Worcester Public 
Schools, United Way of Central Massachusetts and corporate and local 
foundations.
    This summary is a sample of our work and of our collaborations in 
the community. We reach into neighborhoods, into churches, into schools 
and into homes. We do not see ourselves as providing ``safety nets'' so 
much as providing ``ladders'' out of poverty and ``doors'' to self-
sufficiency. We recognize our responsibility for accountability and 
efficiency, and our board of directors understands their special 
responsibility as ``stewards of the public trust.'' WCAC, along with 
the other community action agencies across the country, contribute to 
the quality of life in the community and ensure a brighter future for 
low-income families. That contribution is made possible by The 
Community Services Block Grant.
    Again, thank you for allowing us to represent community action and 
to testify on behalf of the Community Services Block Grant.

  Statement of the National Association for State Community Services 
                                Programs

    The National Association for State Community Services Programs 
(NASCSP) thanks this committee for its continued support of the 
Community Services Block Grant (CSBG) and seeks a successful 
reauthorization of the CSBG this year. NASCSP is the national 
association that represents state administrators of the Community 
Services Block Grant (CSBG) and state directors of the Department of 
Energy's Low-Income Weatherization Assistance Program. The members of 
our organization see firsthand the results of CSBG funding in promoting 
self-sufficiency in communities across the nation. The following 
testimony is the result of discussion and debate among our members and 
leadership and reflects the extensive experience of this group.
    One new feature within the proposed reauthorization is the addition 
of state performance measures. Local accountability has given the CSBG 
network the ability to provide clear data such as the service 
statistics listed below. NASCSP supports the expansion of this local 
accountability to states. Our membership agrees that states should be 
held accountable for the monitoring and evaluation of grantees and for 
uniform high standards of grant administration at the state level. 
However, our members and leadership feel strongly that these measures 
should be defined by the stakeholders and should use existing 
structures rather than duplicating efforts already underway. 
Specifically, NASCSP makes two recommends:
    Due to the block grant nature of the CSBG, each state does 
currently conduct its own programmatic and fiscal monitoring of its 
eligible entities. The systems that are in place are in accordance with 
the statutory requirements of the 1995 reauthorization and the Office 
of Management and Budget (OMB) circulars. For instance, New York, Ohio, 
Tennessee, and Minnesota, require annual audits of eligible entities, 
monthly financial status reports, require annual outcome reports, and 
conduct grantee reviews and assessments for contract compliance. In 
addition to the statute required monitoring, the state of Tennessee and 
many other states, conduct annual, risk assessments of eligible 
entities and may do more monitoring or provide technical assistance 
based on findings. States take the monitoring, on going technical 
assistance and capacity building of their grantee network seriously, as 
it serves as an effective means of program management. When states do 
have negative findings, they designate a grantee as ``at risk'' and 
provide ample technical assistance as the grantee attempts to become 
compliant. In many instances due to the rigor of the technical 
assistance provided grantees are then able to become compliant and 
stable for the time being and eventually flourish.
    As noted above, currently a variety of approaches are utilized by 
states when monitoring. A greater uniformity of approach could be 
achieved by guidance from the federal Office of Community Services 
based on recommendations by a task force of the stakeholders 
representing the best practices. NASCSP would recommend that the 
legislation require the Secretary of HHS provide monitoring guidance 
specifically addressing the fiscal and organizational structure of 
eligible entities. In addition, there would need to be T&TA funds made 
available to help train state staff on how to use such guidance.
    The OCS Monitoring and Assessment Task Force (MATF) initially had 
the mission of creating accountability for all three partners-Community 
Action Agencies, state CSBG offices and the federal Office of Community 
Services. To date, the MATF has led a successful and well-acknowledged 
effort of creating performance standards, Results Oriented Management 
and Accountability (ROMA), for Community Action Agencies (CAAs). Our 
discussions regarding state performance measures have revealed that the 
MATF has not yet completed its work regarding performance measures for 
the other partners. In an effort to respect this process and finish the 
MATF's work, we recommend requiring the Secretary of HHS to utilize a 
task force of the stakeholders, including adequate representation from 
the state CSBG offices, CAAs and the other national partners (possibly 
the OCS MATF) to create performance outcomes or standards for states. 
This task force would create performance outcomes or standards for 
states that would fall in line with current ROMA practices. The task 
force would address issues regarding die timely distribution of funds, 
the monitoring of eligible entities, provision of training and 
technical. assistance, coordination of programs, building the capacity 
of the network, and so on. We would recommend that the task force be 
given 12 months to create performance outcomes or standards for states.

                               BACKGROUND

    The states believe the Community Services Block Grant (CSBG) is a 
unique block grant that has successfully devolved decision making to 
the local level. Federally funded with oversight at the state level, 
the CSBG has maintained a local network of over 1,110 agencies that 
coordinate over $8.5 billion in federal, state, local and private 
resources each year. Operating in more than 96 percent of counties in 
the nation and serving more than 13 million low-income persons, local 
agencies, known as Community Action Agencies (CAAs), provide services 
based on the characteristics of poverty in their communities. For one 
town, this might mean providing job placement and retention services; 
for another, developing affordable housing; in rural areas, it might 
mean providing access to health services or developing a rural 
transportation system.
    Since its inception, the CSBG has shown how partnerships between 
states and local agencies benefit citizens in each state. We believe it 
should be viewed as a model of how the federal government can best 
promote self-sufficiency for low-income persons in a flexible, 
decentralized, non-bureaucratic and highly accountable way.
    Long before the creation of the Temporary Assistance for Needy 
Families (TANF) block grant, the CSBG set the standard for private-
public partnerships that could work to the betterment of local 
communities and low-income residents. The approach is family oriented, 
while promoting economic development and individual self-sufficiency. 
The CSBG relies on an existing and experienced community-based service 
delivery system of CAAs and other non-profit organizations to produce 
results for its clients.

        MAJOR CHARACTERISTICS OF THE COMMUNITY SERVICES NETWORK

    LEVERAGING CAPACITY: For every CSBG dollar they receive, CAAs 
leverage over $4.00 in nonfederal resources (state, local, and private) 
to coordinate efforts that improve the self-sufficiency of low-income 
persons and lead to the development of thriving communities.
    VOLUNTEER MOBILIZATION: CAAs mobilize volunteers in large numbers--
In FY 2001, the most recent year for which data are available, the CAAs 
elicited more than 32 million hours of volunteer efforts, the 
equivalent of nearly 15,400 full-time employees. Using just the minimum 
wage, these volunteer hours are valued at nearly $165 million.
    LOCALLY DIRECTED: Tri-partite boards of directors guide CAAs. These 
boards consist of one-third elected officials, one-third low-income 
persons and one-third representatives from the private sector. The 
boards are responsible for establishing policy and approving business 
plans of the local agencies. Since these boards represent a cross-
section of the local community, they guarantee that CAAs will be 
responsive to the needs of their community.
    ADAPTABILITY: CAAs provide a flexible local presence that governors 
have mobilized to deal with emerging poverty issues.
    EMERGENCY RESPONSE: Federal and state emergency personnel utilize 
CAAs as a frontline resource to deal with emergency situations such as 
floods, hurricanes and economic downturns. Individual citizens turn to 
the CAA to help deal with individual family hardships, such as house 
fires or other emergencies.
    ACCOUNTABLE: The federal Office of Community Services, state CSBG 
offices and CAAs have worked closely to develop a results-oriented 
management and accountability (ROMA) system. Through this system, 
individual agencies determine local priorities within six common 
national goals for CSBG and report on the outcomes that they achieved 
in their communities. As of FY 2001, all states and all CAAs are 
reporting on their outcomes.
    The statutory goal of the CSBG is to ameliorate the effects of 
poverty while at the same time working within the community to 
eliminate the causes of poverty. The primary goal of every CAA is self-
sufficiency for its clients. Helping families become self-sufficient is 
a long-term process that requires multiple resources. This is why the 
partnership of federal, state, local and private enterprise has been so 
vital to the successes of the CAAs.

                        WHO DOES THE CSBG SERVE?

    National data compiled by NASCSP shove that the CSBG serves a broad 
segment of low-income persons, particularly those who are not being 
reached by other programs and are not being served by welfare programs. 
Based on the most recently reported data, from fiscal year 2001:
    70 percent have incomes at or below the poverty level; 50 percent 
have incomes below 75 percent of the poverty guidelines. In 2001, the 
poverty level for a family of three was $14,630.
    Only 49 percent of adults have a high school diploma or equivalency 
certificate.
    41 percent of all client families are ``working poor'' and have 
wages or unemployment benefits as income.
    24 percent depend on pensions and Social Security and are therefore 
poor, former workers.
    Only 12 percent receive cash assistance from TANF.
    Nearly 60 percent of families assisted have children under 18 years 
of age.

                    WHAT DO LOCAL CSBG AGENCIES DO?

    Since Community Action Agencies operate in rural areas as well as 
in urban areas, it is difficult to describe a typical Community Action 
Agency. However, one thing that is common to all is the goal of self-
sufficiency for all of their clients. Reaching this goal may mean 
providing daycare for a struggling single mother as she completes her 
General Equivalency Diploma (GED) certificate, moves through a 
community college course and finally is on her own supporting her 
family without federal assistance. It may mean assisting a recovering 
substance abuser as he seeks employment. Many of the Community Action 
Agencies' clients are persons who are experiencing a one-time 
emergency. Others have lives of chaos brought about by many overlapping 
forces a divorce, sudden death of a wage earner, illness, lack of a 
high school education, closing of a local factory or the loss of family 
farms.
    CAAS provide access to a variety of opportunities for their 
clients. Although they are not identical, most will provide some if not 
all of the services listed: employment and training programs; 
individual development accounts; transportation and child care for low-
income workers; senior services; micro-business development help for 
low-income entrepreneurs; a variety of crisis and emergency safety net 
services; family development programs; nutrition programs; energy 
assistance programs; local community and economic development projects; 
housing and weatherization services; and Head Start.
    CSBG funds many of these services directly. Even more importantly, 
CSBG is the core funding which holds together a local delivery system 
able to respond effectively and efficiently, without a lot of red tape, 
to the needs of individual low-income housebolds as well as to broader 
community needs. Without the CSBG, local agencies would not have the 
capacity to work in their communities developing local funding, private 
donations and volunteer services and running programs of far greater 
size and value than the actual CSBG dollars they receive.
    CAAs manage a host of other federal, suite and local programs which 
make it possible to provide a one-stop location for persons whose 
problems are usually mufti-faceted. Sixty (60) percent of the CAAs 
manage the Head Start program in their community. Using their unique 
position in the community, CAAs recruit additional volunteers, bring in 
local school department personnel, tap into religious groups for 
additional help, coordinate child care and bring needed health care 
services to Head Start centers. In many states they also manage the Low 
Income Home Energy Assistance Program (LIHEAP), raising additional 
funds from utilities for this vital program. CAAs may also administer 
the Weatherization Assistance Program and are able to mobilize funds 
for additional work on residences, not directly related to energy 
savings, that may keep a low-income elderly couple in their home. CAAs 
also coordinate the Weatherization Assistance Program with the 
Community Development Block Grant program to stretch federal dollars 
and provide a greater return for tax dollars invested. They administer 
the Women, Infants and Children (WIC) nutrition program as well as job 
training programs, substance abuse programs, transportation programs, 
domestic violence and homeless shelters and food pantries.

                        EXAMPLES OF CSBG AT WORK

    Since 1994, CSBG has implemented Results-Oriented Management and 
Accountability practices whereby the effectiveness of programs is 
captured through the use of goals and outcomes measures. Below you will 
find some of the network's first nationally aggregated outcomes 
achieved by individuals, families and communities as a result of their 
participation in innovative CSBG programs during FY 2001:
    42 states reported 70,360 participants gained employment with the 
help of community action.
    24 states reported 17,426 participants retained employment for 90 
days or more.
    28 states reported 32,603 households experienced an increase in 
income from employment, tax benefits or child support secured with the 
assistance of community action.
    23 states reported 12,662 families continued to move from 
homelessness to transitional housing.
    26 states reported 33,795 families moved from substandard to safe, 
stable housing.
    16 states reported 1,861 families achieved home ownership as a 
result of community action assistance.
    32 states reported 22,903 participants achieved literacy or a GED.
    22 states reported 12,846 participants achieved post secondary 
degree or vocational education certificate.
    28 states reported 506,545 new service ``opportunities'' were 
created for low-income families as a result of community action work or 
advocacy, including affordable and expanded public and private 
transportation, medical care, child care and development, new community 
centers, youth programs, increased business opportunity, food, and 
retail shopping in low-income neighborhoods.
    All the above considered, NASCSP urges this committee to 
reauthorize the Community Services Block Grant. The program touches 
nearly a quarter of all those living in poverty and another million of 
the near-poor. The CSBG is an anti-poverty program that is uniquely 
accountable for results and one that leverages substantial financial 
resources and volunteer commitment. The program flexibility, the 
locally selected and representative boards of directors, and the unique 
ability of CSBG agencies to provide linkages as a core function of 
service make the Community Services Block Grant a model public-private 
partnership.
                                 ______
                                 
                              State of Connecticut,
                                Office of the Commissioner,
                                                     June 30, 2003.
Hon. Christopher J. Dodd,
U.S. Senate,
Washington, DC 20510.

    Dear Senator Dodd: I understand the Senate Committee on Health, 
Education, Labor and Pensions is considering the Community Services 
Block Grant (CSBG) re-authorization and may be reviewing not only the 
performance of community action agencies, but also the effectiveness of 
local efforts to measure performance and document success.
    I wanted to take this opportunity to share some information on the 
success of our community action efforts here in Connecticut with regard 
to the implementation of the national Results Oriented Management 
Assessment (ROMA) system. In short, this management innovation is so 
impressive that I am using the Connecticut Community Action Network and 
the ROMA model as a new paradigm to support Connecticut's Human 
Services Infrastructure (HSI).
    I plan to explore expanding ROMA applications in my own Department 
and related human service contracts. At present, we have initiated a 
planning process for the development of the HSI system with CSBG 
agencies introducing ROMA concepts to other key partners across the 
state.
    I hope the CSBG re-authorization will ensure at least two things: 
the continuation of ROMA and protection of core funding for community 
action networks. The continuation of the ROMA system, which the states 
and community action agencies nationwide painstakingly developed, 
tested, revised and implemented with CSBG support from HHS, is critical 
to measuring our success in serving Connecticut's low-income families. 
It is sufficiently adaptable to meet our needs in Connecticut and 
sufficiently rigorous to lead to documentable program improvement.
    Second, the Community Services Block Grant should be reaffirmed and 
protected as the core funding for local community action networks. Our 
community action partners use CSBG funds in remarkable ways to leverage 
additional resources and develop innovative approaches to building the 
assets of low-income people and their communities.
    In Connecticut, our measured results for 2002 show: more than 
254,000 low-income residents served; eighty-eight percent (88%) reduced 
or eliminated an emergency need (such as for food, shelter, heating 
assistance); sixty nine percent (69%) demonstrated an increased ability 
to manage income and purchase assets to achieve self-sufficiency; 
ninety percent (90%) of families demonstrated an increase in skills 
through counseling, classes and other support services; and 
approximately 15,000 children and youth received services to support 
their healthy growth and development through programs like Head Start 
and School Readiness.
    I share these results with you to demonstrate the dramatic impact 
ROMA implementation has had in Connecticut. We can now clearly describe 
and document the impact the investment of Community Services Block 
Grant funding has in our state and the progress we are making toward 
the six national CSBG goals.
    Through the allocation of CSBG Discretionary funding, my agency has 
supported full ROMA implementation and the installation of a Management 
Information System that will connect all twelve of Connecticut's 
Community Action Agencies together in a single database and automate 
the collection of data.
    Again, thank you for this opportunity to document the impact and 
importance of continued CSBG funding to the state of Connecticut. 
Should you have any additional questions, please don't hesitate to 
contact me.
            Best regards,
                                  Patricia A. Wilson-Coker,
                                                      Commissioner.

    [Whereupon, at 4:46 p.m., the subcommittee was adjourned.]


</pre></body></html>
